No. 20-44
i

In the

Supreme Court of tfje Unttefc States
In Re. DAVID A GOLDEN (G.),

On Petition for extraordinary writ
(Mandamus, Prohibition, & Quo Warranto)
to the:
Ninth Circuit (No. 19-35608);
US District Court of Western Washington (No.
CV18 6051 RBL);
and US Dept, of Justi ce

i

PETITION FOR REHEARING
David A. Golden
WA Professional Engineer #39855
3459 US 75 AVE
Hull, IA 51239
Tel: (360)915-2612
Email: goldend3@gmail.com

recesveoH

NOV - 5 2OT

CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual suing on behalf of
himself and the United States of America.
Petitioner has no parent corporation, and petitioner
owns less than 10% of any publicly traded
company.

TABLE OF CONTENTS
Volume A
PAGE
CORPORATE DISCLOSURE

1

TABLE OF AUTHORITIES

1V-V

GROUNDS FOR REHEARING

1

CONCLUSION

11

CERTIFICATE OF COUNSEL

16

APPENDIX A (Janet I Levine, The Contract
Clause: A Constitutional Basis for Invalidating
State Legislation, 12 Loy. L. A. L. Rev. 927
(1973))
I.

BACKGROUND
A4
A. Historical Interpretation
B. Blaisdell Interpretation..
All
A17
C. Modern Interpretation...,
D. United States Trust Co. v. New Jersey
A27
Interpretation

II.

ALLIED STRUCTURAL STEEL: THE
OPINION
A3 3

n

III.

ALLIED STRUCTURAL STEEL:
DEVIATIONS AND IMPACT....A38
A. Strict Application of Ends-Means
Analysis-Narrow Scope for Permissible
Ends
A3 9
1. Strictly limiting the permissible
ends of legislation
A43
2. Strict application of ends-means
analysis
A48
B. Refusal To Maintain the Presumption
Favoring the Legislative Judgment as
to Necessary and Reasonableness of
Legislation
A55
C. Court Expands the Concept of What Is
Included in a Contract, for the Purpose
of Analyzing a Contract
Impairment
A63

IV.

CONTRACT CLAUSE LITIGATION:
WHAT THE FUTURE
HOLDS
A78

in

• -*

TABLE OF AUTHORITIES
Page
Cases
William P. Barr v. Ming Dai, Petition for
2
Certiorari, #19-1155 (2020)
Brnovich, In his official capacity as Arizona
Attorney General v. Democratic National
Committee, et al., Petition for Certiorari, #191257 (2020)
2-3
Dred Scott v. Stanford, 60 US 393
(1856).............................................

8

Fletcher v. Peck, 10 US 87 (1810)..

10

United States v. Hall, Circuit Court, W. D.
Georgia (1890), Federal Reporter, Vol. 44, p.
864
10-11

Constitutional Provisions, Statutes, and
Court Rules
U.S. Constitution
1st Amendment......................
5th Amendment.....................
14th Amendment....................
15th Amendment....................
Contract Clause (Art I § 10)

4,6
4,6
4,7
4
11, 14

Section 2 of the Voter’s Rights Act.........3, 4
IV

2nd Restatement of Contracts

14

5 US § 3331

12

28 US § 453

12

The False Claims Act (FCA)

1, 11, 14

Other Authorities
Senate Judiciary Committee Confirmation
Hearing; Judge Amy Comey Barrett; October
12,2020.........................
4-9
r.

Corpus Juris Secundum

13

American Jurisprudence,

14

Janet Levine, The Contract Clause: A
Constitutional Basis for Invalidating State
Legislation, 12 Loy. L. A. L. Rev. 927
(1979)
9

V

PETITION FOR REHEARING
Pursuant to this Court’s Rule 44.2, Petitioner
David A Golden hereby petitions this Court for
rehearing of the Court’s 10/5/20 order denying
mandamus, prohibition, and quo warranto against
the United States Department of Justice and lower
courts. Alternatively, petitioner requests that the
Court grant the previously submitted mandamus/
prohibition/ quo warranto petition, publish
Volumes B and C of the Appendix in the on-line
docket, vacate the judgment of the 9th Circuit and
District Ct., and remand so that these Courts can
take appropriate action for USDOJ’s prosecutorial
misconduct.
GROUNDS FOR REHEARING
On October 5th, 2020, this Court denied
Petitioner’s mandamus / quo warranto/ prohibition
petition, even though William P. Barr (Attorney
General of the United States) was charged with
perjury for lying under oath about enforcing the
False Claims Act, causing a material and illegal
dismissal of petitioner’s claims. Sufficient evidence
proving Barr’s perjury was provided by Barr’s own
writings on the subject, petitioner’s own testimony,
and Nancy Pelosi’s statements made on television.
As petitioner’s claims have been denied without
explanation, in what appears to be a political coverup, it is necessary to examine the other cases that
this Court accepted during this time, as possible
grounds for rehearing of petitioner’s complaint.

1

The first case of note, William P. Barr v. Ming
Dai (accepted by this Court on 10/2/20)1, involves a
Chinese nationalseeking asylum in the United
States due to a reported forced abortion performed
on his wife. According to the petition, Mr. Dai later
recanted his testimony about the abortion, and
testified that he required asylum “because he
wanted a good environment for his child and
because his wife had a job and he did not.” After
being denied asylum by the immigration judge, Dai
filed a petition for review in the 9th Circuit, which
was granted by a divided panel.2 After hearing Mr.
Dai’s claim, the 9th Circuit issued an order stating
that neither the IJ (immigration judge) nor the BIA
(board of immigration appeals) had made an
explicit finding that Mr. Dai’s testimony was not
credible, and that despite Mr. Dai’s earlier false
testimony, he would be eligible for asylum in the
United States. The government then petitioned for
rehearing en banc, but the Ninth Circuit denied the
petition, stating that, “A factfinder may resolve
factual issues against a party without expressly
finding that party not credible. That principle is
confirmed here... by the statutory provision
allowing the trier of fact to ‘weigh the credible
testimony along with other evidence of record.3”
The second case of note, Brnovich, In his official
capacity as Arizona Attorney General v. Democratic
1 Supreme Ct. Docket Case No. 19-1155 Petition for
Certiorari.
2 Id. at p. 8.
3 Id. at p. 11.
2

National Committee, et al.4, involves the
Democratic Party’s challenge of Arizona’s out-ofprecinct voting policy (ballots cast outside of voter’s
registered precinct are not counted in the election),
and ballot collection law (persons other than the
voter, acknowledged family member, the USPS, or
other legitimate official are prohibited from
handling absentee ballots), based on section 2 of
the voter’s rights act of 1965. According to this
petition, to establish a violation of Section 2, the
plaintiff must prove, “ based on the totality of
circumstances,” that the State’s ‘political processes’
are ‘not equally open to participation by members’
of a protected class ‘in that its members have less
opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice.” At trial, the
District Court found that the DNC failed to show
that the policy “imposed meaningfully disparate
burdens on minority voters as compared to non­
minority voters,5” and that “99% of minorities and
99.5% of non-minorities voted in the correct
precinct.” On appeal, the Ninth Circuit held that
the record does not infer that the Arizona
legislature acted with discriminatory intent when it
passed the law. En banc review was granted by the
Ninth. The en banc panel reversed the ruling,
holding that the absentee voting law(s) were
enacted with discriminatory intent, in violation of

4 Supreme Ct. Docket Case No. #19-1257. Petition for
Certiorari.
5 Id. at p. 8.
3

fc*’

both section 2 and the Fifteenth Amendment6, and
that section 2 was implicated where ‘more than a
de minimis number of minority voters’ are
disparately affected by a voting policy. Besides the
fact that this case was given a trial in the District
Ct., appellate review in the 9th Circuit, as well as
en banc review by the 9th Circuit (while petitioner’s
claims against the DNC and RNC were given none
of these things); it is also interesting to note that
the entirety of the appendix in this case has been
uploaded to the online docket, while petitioner’s
evidence (Case 20-44 Appendices Volumes B and C)
has been suppressed.
Of further significance, and as additional
grounds for rehearing, on 10/12/20 the Senate
Judiciary Committee met to confirm a new justice
for this Court. During this hearing, many
statements were made by members of congress
outlining the role of the Constitution in the judicial
process [these statements made just after this
Court denied petitioner’s claims; especially note
Mr. Tullis’ usage of the 1st, 5th, and 14th
Amendments]:
(Chuck Grassley) The framers recognized the
separation of powers as ‘the absolutely
essential guarantee of a just government;
because without a secure structure of
separated powers, our Bill of Rights would be
worthless.” 7
6 Id. at p. 11.
7 https://www.youtube.com/watch?v=UnnsT6xIAx4 at 49:45
4

(Mike Lee) In fact, each and every person,
serving as an officer of the United States
government, is required under Art. VI of the
Constitution to take an oath to uphold and
protect and defend the Constitution of the
United States. The Constitution, in short,
this document, written nearly 2.5 centuries
ago, has helped foster the greatest
civilization that the world has ever known, is
not just a judicial thing. This is a thing that
works, and works best when everyone of us
reads it, understands it, and takes and
honors an oath to protect and defend it.
When we do our jobs in this branch, when
our friends in the executive branch do their
jobs, it requires us to follow the Constitution
just the same way. 8
(Ted Kruz) “That system of checks and
balances limits power ultimately and protect
the voters. And indeed, the voters made a
clear choice.”9
(Ben Sasse) Judicial activism is the idea that
judges get to advocate for or advance
policies, even though they don’t have to
stand for election before the voters, and even
though they have lifetime tenure... when
politicians try to demand that judicial
8 Id. at 1:36:20
9 Id. at 1:55:38
5

nominees, who are supposed to be impartial,
when politicians try to get judicial nominees
to give their views on cases or to give their
views on policies, to try to get them to pre­
commit to certain outcomes in future court
cases, we are politicizing the courts, and that
is wrong. That is a violation of our oath to
the Constitution.10
(Thom Tillis) What makes us free is our
Constitution. Think of the word
Constitution, it means structure... The real
danger to our constitutional republic is
centralization of power in any one part of
government. When that happens, liberty
dies, and tyranny reigns. That’s why it’s
critical that Supreme Ct. justices maintain
the proper role. They decide cases, they
don’t make policy. In recent decades, the
court has drifted towards a trend where it
decides majority disputes over policy rather
than reserving those decisions for the
American people acting through their elected
representatives, people like those of us in the
US Senate. Art. Ill judges cannot and
should not be policy makers... My
Democratic colleagues claim they care about
the 1st amendment, the 5th amendment, the
10 Id. at 2:18:45
6

14th Amendment. If they care about our
Constitutional liberties, then they should
care about confirming a judge who
understands the proper role of the Supreme
Ct. Rights granted by nine can just as easily
be ended by nine.11
(Joni Ernst) One thing is very important to
me, and it’s something that matters to
Iowans, whether they are lawyers or not. I
firmly believe in the role of our Supreme Ct.,
it is the defender of our Constitution, at the
end of the day, that’s my test for a Supreme
Ct. justice, will you defend the Constitution?
It frustrates me, and it frustrates my fellow
Iowans that the Supreme Ct. has become a
super-legislature for a Congress that frankly
won’t come together, discuss these tough
issues, and do its job.12
(Mike Crapo) I’ve met with a number of
Supreme Ct. nominees with my service in
the Senate, and throughout I’ve continued to
maintain an emphasis on following the law
and upholding our Constitution, and that
that must be a central characteristic of the
justices we select for this highly influential
11 Id. at 2:56:45
12 Id. at 3:57:49
7

part of our government. Judges have a great
responsibility to carefully exercise their
authority within the limits of the law. Our
court system has the responsibility to
preserve our constitutional rights, ensure a
limited government, and provide speedy and
fair justice. 13
(Ted Kennedy14) When a strict interpretation
of the Constitution according to the fixed
rules which govern the interpretation of laws
is abandoned, and the theoretical opinions of
individuals are allowed to control its
meaning, we have no longer a Constitution,
we’re under the government of individual
men, who for the time being have power to
declare what their constitution is according
to their own views of what it ought to
mean.15
(Marsha Blackburn) Can we still call the
Constitution a relevant valid source of
law?... Are the principles in that document
still capable of curbing abuses of power, and
safeguarding freedom? Can we have faith
that the future of democracy remains strong
Id. at 4:26:25
14 citing Dred Scott v. Stanford 60 US 393
15 Id. at 4:49:00
8

despite a summer of looting and violence in
the streets... The answer to each is yes. 16
The primary legal resource that petitioner used
to prepare his mandamus/ quo warranto/
prohibition petition is attached in the Appendix (p.
A1-A79). This article17, authored by Janet Levine,
a white-collar criminal attorney in the Los Angeles
area, explains in detail how this Court is issuing
rulings contrary to its own established case law,
ignoring civil rights as well as God given
Constitutional rights, to advance a clear political
goal (taxation).
According to additional research that petitioner
has performed, none of the cases referenced in Ms.
Levine’s article, or in petitioner’s mandamus/ quo
warranto/ prohibition petition, have been
overturned. Further, according to former Chief
Justice Marshall, contract meddling involving the
states was a significant problem in the past, and
one that the Supreme Ct. was very interested in:
“The power of changing the relative situation
of debtor and creditor, of interfering with
contracts, a power which comes home to
every man, touches the interest of all, and
controls the conduct of every individual in
Id. at 4:59:30
17 Janet I. Levine, The Contract Clause: A Constitutional
Basis for Invalidating State Legislation, 12 Loy. L. A. L. Rev.
927 (1979). Available at
https://digitalcommons.lmu.edU/llr/voll2/iss4/6
9

those things which he supposes to be proper
for his own exclusive management, had been
used to such an excess by the State
legislatures, as to break in upon the ordinary
intercourse of society, and destroy all
confidence between man and man. The
mischief had become so great, so alarming,
as not only to impair commercial intercourse,
and threaten the existence of credit, but to
sap the morals of the people, and destroy the
sanctity of private faith. To guard against
the continuance of the evil was an object of
deep interest with all the truly wise, as well
as the virtuous, of this great community, and
was one of the important benefits expected
from a reform of the government.”18
Further, and according to United States v. Hall
(1890),19 and in regards to Bill Barr’s fraud on the
court in petitioner’s case: “perjury was not
originally punishable by the court of law. It was
deemed in the ages past a sin, rather than a crime,
and its punishment was supposed to reside with
the offended deity, who had been solemnly invoked,
and the solemn invocation to whom had been
disregarded. But for several centuries past the
crime has been triable and punishable in the
courts.”20 This case also notes that, “no country
18 See Appendix p. A5-A6; citing Fletcher v. Peck 10 U.S. 87
(1810)
19 Federal Reporter Vol. 44 p. 864.
20 Id. at p. 966
10

can subsist a twelve-month where an oath is not
thought binding, for the want of it must necessarily
dissolve society.”21 The standard of evidence for
one witness to obtain a perjury conviction is also
given in this case: “this additional evidence,
whether proceeding from letter or documents, or
any evidence of other circumstances, is not required
to be so strong that, standing alone, it would justify
a conviction; but it must be at least strongly
corroborative of the testimony of the accusing
witness.”
CONCLUSION
Petitioner has provided substantial evidence that
Barr committed perjury while under oath before
the US Senate, as his paper entitled
“Constitutionality of the Qui-Tam Provisions of the
False Claims Act” highlights his desire to abolish
the Act. Barr cannot reconcile his paper, his false
statements made under oath, and his fraudulent
motion to dismiss petitioner’s complaint. This
Court has refused to allow a hearing of the charges;
and deprived petitioner of Constitutional rights;
and No Court has required Barr to rebut the
proven charges of perjury.
Petitioner has also demonstrated how the United
States is violating the False Claims Act, the
Contract Clause, as well as its own stare decisis, so
that politicians can launder tax money.

21 Id. at p. 966
11

Judges in this Court must swear two oaths:
., do solemnly swear (or affirm) that I will
I,
support and defend the Constitution of the United
States against all enemies, foreign and domestic,
that I will bear true faith and allegiance to the
same; that I take this obligation freely, without any
mental reservation or purpose of evasion, and that
I will well and faithfully discharge the duties of the
office on which I am about the enter. So help me
God. (5 US § 3331).
., do solemnly swear or affirm that I will
I,
administer justice without respect to persons, and
equal right to the poor and to the rich, and that I
will faithfully and impartially discharge and
perform all the duties incumbent upon me as____
according to the best of my abilities and
understanding, agreeably to the Constitution and
laws of the United States. So help me God. (28 US
§ 453).
Various links to Freemasonry / Rotary have
been identified throughout petitioner’s complaint,
and many have also been identified as Jesuits.22
These individuals, rather than being punished for
what they’ve done, have been given various awards
and accolades for subverting petitioner’s
Constitutional rights to launder tax money.

22 Although petitioner has heen labelled a conspiracy theorist,
a similar conspiracy called Propaganda Due has already been
proven.
12

Petitioner is also able to link this Court and Bill
Barr to Opus Dei, as well as the Catholic Church.
And, Bill Barr has already admitted that, “history’s
written by the winner so it largely depends on
who’s writing the history.”23
Since this Court foregoes Constitutional rights,
so that Donald Trump can portray himself as the
“law and order” President, while politicians evade
the law, masquerade as victims24, all while
laundering tax money, it then becomes apparent
that the three “separate branches” of government
are not really separate after all.
Likewise, since this Court has struck down
petitioner’s Constitutional claims, and refused to
make the solicitor general respond to the proven
charges of penury against Barr, so that this court
can hear Barr’s case about a prevaricating asylum
seeker, who has already been given multiple
hearings (while petitioner’s complaint(s) have been
allowed none); and a political case to further the
proposition that absentee voter fraud is rampant25;
it is difficult to believe that petitioner is being
treated equally under the law.
According to C.J.S. Constitutional Law § 150, “It
is a basic provision of American jurisprudence that

23 https://www.voutube.com/watch?v=NX0Ri7SHlAg
24 https://komonews.com/news/local/this-is-verv-disturbingwhat-is-being-done-to-protect-governor-inslee-from-threats
25 see https://abcnews.go.com/Politics/trumps-ballot-fraudallegations-embellished-widespreadexperts/story?id=73701060
13

TT

a statutory provision can never be allowed to trump
a constitutional right.”
Am. Jur., Constitutional Law §53-55 describes
the supremacy clause, and notes that only laws .
made pursuant to the Constitution are lawful.
Petitioner has shown repeatedly how the False
Claims Act is unlawful, as it is being used to deny
petitioner a fair and impartial hearing for Art. Ill
damages suffered by contract fraud under the 2nd
Restatement of Contracts, which petitioner is
entitled to by the Contract Clause and the Bill of
Rights.
Am. Jur. Constitutional Law § 113 states that
“there is no valid reason why a court, if it has
jurisdiction of a constitutional question, should
refuse to decide the question merely because it has
some discretion in the matter whether to do so or
not.”
This Court has refused to address any of the
issues that petitioner has raised. As a result of this
Court’s indifference and inaction to the Defendants’
fraud, the Defendants have been allowed to launder
tax money with impunity.26
It then must follow that this Court cannot
successfully reconcile its 2nd oath. And by corollary,
its first oath too must fail. Therefore, this Court
must grant relief to petitioner.

26 see https://www.cnn.com/2019/03/01/politics/inslee-2020presidential-campaign/index.html
14

Respectfully submitted,

10/29/20
David Golden
3459 US 75 AVE
Hull, IA 51239

15

4

CERTIFICATE OF COUNSEL
This petition has been restricted to the grounds
specified in Paragraph 44.2 of the Supreme Ct.
Rules (intervening circumstances of a substantial
or controlling effect, or other substantial grounds
not previously presented). This petition has been
presented in good faith and is not meant for delay.
10/29/20
David Golden

16

APPENDIX

Loyola Marymount University and Loyola
Law School
Digital Commons at Loyola Marymount
University and Loyola Law School
Loyola of Los Angeles Law Review Law Reviews
9-1-1979
The Contract Clause: A Constitutional Basis
for Invalidating State Legislation
Janet Irene Levine
This Notes and Comments is brought to you for free
and open access by the Law Reviews at Digital
Commons @ Loyola Marymount University and
Loyola Law School. It has been accepted for
inclusion in Loyola of Los Angeles Law Review by
an authorized administrator of
DigitalCommons@Loyola Marymount University
and Loyola Law School. For more information,
please contact digitalcommons@lmu.edu.
Recommended Citation
Janet I. Levine,The Contract Clause: A
Constitutional Basis for Invalidating State
Legislation, 12 Loy. L.A. L. Rev. 927 (1979).

Al

THE CONTRACT CLAUSE: A
CONSTITUTIONAL BASIS FOR
INVALIDATING STATE LEGISLATION
The contract clause of the United States
Constitution1 has been the subject of speculation as
to whether it could provide any basis for
prohibiting state legislative action.2 Until recently,
this speculation was well deserved.3 Two cases
decided by the Supreme Court in 19774 and
1978,5 however, should put an end to the idea
that the contract clause is a "dead letter." In these
cases, the Supreme Court has revitalized the
contract clause, both by showing that these
1 U.S. CONST, art. I, § 10, cl. I. The contract clause provides
that: "No State shall... pass any ... Law impairing the
Obligation of Contracts."
2 See, e.g., City of El Paso v. Simmons, 379 U.S. 497,517
(1965) (Black, J., dissenting) (dissenting from "the Court's
balancing away the plain guarantee of Art. I§ IO"); H. CHASE
& C. DUCAT, CORWIN's THE CONSTITUTION AND WHAT
IT MEANS TODAY 105 (1974 ed.) ("Today the clause is of
negligible importance, and might well be stricken from the
Constitution. For most practical purposes, in fact, it has
been.").
3 The last Supreme Court case, prior to 1977, to hold state
action unconstitutional as violative of the contract clause is
Wood v. Lovett, 313 U.S. 362 (1941) (1937 repeal of 1935
Arkansas law protecting tax sale purchasers from attack on
procedural irregularities).
4 United States Trust Co. v. New Jersey, 431 U.S. 1 (1977).
5 Allied Structural Steel Co. v. Spannaus, 438 U.S. 234 (1978).
A2

prohibitions retain some potence and by broadening
the scope and application of the clause's
prohibitions, even when construed as limited by the
reserved powers of the state.6
This comment begins with an analysis of the
historical development of the contract clause and
the Court's development of contract clause
protections. This development is then compared
with the development of the due process clause of
the Constitution to demonstrate the consistencies
in the Court's treatment of economic interests
under both constitutional provisions. An
examination of two recent Supreme Court decisions
follows to demonstrate the change in the scope of
contract clause protections affected by the Court's
analysis and to examine its effect on future
litigation. Finally, the contract clause as presently
interpreted is compared with the due process clause

6

Undoubtedly, whatever is reserved of state power must be
consistent with the fair intent of the constitutional limitation
of that power. The reserved power cannot be construed so as
to destroy the limitation, nor is the limitation to be construed
to destroy the reserved power in its essential aspects. They
must be construed in harmony with each other.
Home Bldg. & Loan Ass'n v. Blaisdell, 290 U.S. 398, 439
(1934).
Reserved power is that power the state retains to act in the
general welfare. Reserved power exercises are often
characterized as police power exercises (although the reserved
power also includes power of eminent domain). The terms
will, therefore, be used interchangably. Manigault v. Springs,
199 U.S. 473, 480 (1905), first recognized that contract clause
prohibitions are subject to reserved power exercises.

A3

to demonstrate that economic interests now receive
different treatment depending upon how that
interest is characterized.
I. BACKGROUND
A. Historical Interpretation
It is generally acknowledged that the contract
clause was adopted to rectify economic conditions
prevalent under the Articles of Confederation,7
although this purpose is not evident in the debates
of the Constitutional Convention.8 Widespread
economic depression existed following the
Revolutionary War, leading many states to enact
debtor relief statutes. These legislative schemes
undermined confidence in the economy and made
prosperous trade impossible.9 Business persons

7 See, e.g., THE FEDERALIST No. 44 (J. Madison) at 319
(Belknap Press 1966) ("Our own experience has taught us,
nevertheless, that additional fences against these dangers
ought not be omitted. Very properly, therefore, have the
convention added this constitutional bulwark in favor of
personal security and private rights ...."); Home Bldg. & Loan
Ass'n v. Blaisdell, 290 U.S. 398, 427-28 (1934); Ogden v.
Saunders, 25 U.S. (12 Wheat.) 213, 354-55 (1827); Hale, The
Supreme Court and the Contract Clause (pt. I), 57 HARV. L.
REV. 512, 512-13 (1944) [hereinafter cited as Hale],
s See 2 THE RECORDS OF THE FEDERAL CONVENTION
OF 1787, 439-41, 448-49, 597, 619, 636 (rev. ed. M. Farrand
1966).
9 See Allied Structural Steel v. Spannaus, 438 U.S. 234,256
(1978) (Brennan, J., dissenting) ("The economic depression
A4

were unwilling to enter any transaction that
involved credit because of the propensity of state
legislatures to abrogate later these credit
agreements by legislative fiat. The Framers sought
to ensure stability for the debtor-creditor
relationship by adopting the contract clause, which
would prevent future state interference with
debtor-creditor relationships. The need for the
clause is noted in Chief Justice Marshall's dissent
to Ogden v. Saunders:
The power of changing the relative situation of
debtor and creditor, of interfering with
contracts, a power which comes home to every
man, touches the interest of all, and controls the
conduct of every individual in those things
which he supposes to be proper for his own
exclusive management, had been used to such
an excess by the State legislatures, as to break
in upon the ordinary intercourse of society, and
destroy all confidence between man and man.
The mischief had become so great, so alarming,
as not only to impair commercial intercourse,
and threaten the existence of credit, but to sap
the morals of the people, and destroy the
sanctity of private faith. To guard against the
continuance of the evil was an object of deep
interest with all the truly wise, as well as the
virtuous, of this great community, and was one

that followed the Revolutionary War witnessed 'an ignoble
array of [such State] legislative schemes'.") (citing Home Bldg.
& Loan Ass'n v. Blaisdell, 290 U.S. 398, 427 (1934)).
A5

of the important benefits expected from a reform
of the government.10
Although, as adopted, the contract clause was
intended to prevent state legislative interference
with debtor-creditor contracts, initial
interpretations of the clause did not confine its
application to that limited situation.11 Fletcher v.
Peck,12 the first case construing the contract clause,

10 Ogden v. Saunders, 25 U.S. (12 Wheat.) 213, 354-55
(Marshall, C.J., dissenting).
11 See J. NOWAK, R. ROTUNDA, & J. YOUNG,
CONSTITUTIONAL LAW 420 (1978); B. WRIGHT, THE
GROWTH OF AMERICAN CONSTITUTIONAL LAW 41-44
(1967). See, e.g., Fletcher v. Peck, 10 U.S. (6 Cranch) 87 (1810)
(Georgia's repeal of land grant declared unconstitutional);
New Jersey v. Wilson, 11 U.S. (7 Cranch) 164 (1812) (repeal of
act exempting Indian land from tax liability declared void);
Dartmouth College v. Woodward, 17 U.S. (4 Wheat.) 518
(1819) (act attempting to alter corporate charter is
unconstitutional).
12 10 U.S. (6 Cranch) 87 (1810). Chief Justice Marshall's
opinion is permeated with notions of "natural law." Fletcher
can be read as striking down the state legislation on either a
contract clause or natural law basis. Justice Johnson's
concurring opinion finds the statute invalid on only a natural
law basis. Id. at 143. Natural law, a doctrine in great favor in
the nation's early history, was based on the concept that some
rights, particularly property rights, are immune from
government legislation because these rights predate the
government and are essential to the continued existence of
the government. See generally T. COOLEY, THE GENERAL
PRINCIPALS OF CONSTITUTIONAL LAW IN THE
UNITED STATES OF AMERICA Chapter XVI (3d ed. A.
A6

extended the application of the clause's prohibitions
to contracts to which the state was a party. Fletcher
involved a situation arising from the great Yazoo
land scandal. The state legislature had sought to
rescind land grants procured by bribery. The Court
unanimously held that the contract clause
prohibited rescission of these land grants. In doing
so, the Court had to find that the clause applied to
contracts to which the state was a party, as well as
to private contracts.13
Applicability of the clause to contracts to which
the state was a party was reaffirmed in Dartmouth
College v. Woodward,.14 In Dartmouth the Court
held that a corporate charter, such as the one
issued to Dartmouth College, was a contract, and
that in the absence of an express reservation by the
state of the power to modify, it could not be
impaired by state law without violating the
contract clause.15
The early expansion of the contract clause's area
of application was accompanied by two decisions
McLaughlin 1898); 2 T. COOLEY, CONSTITUTIONAL
LIMITATIONS (8th ed. Carrington 1927).
13 10 U.S. (6 Cranch) at 137.
14 17 U.S. (4 Wheat.) 518 (1819). See also New Jersey v.
Wilson, 11 U.S. (7 Cranch) 164 (1812).
15 17 U.S. (4 Wheat.) at 641. As a result of this decision states
have consistently retained the right to modify corporate
charters. See J. NOWAK, R. ROTUNDA, & J. YOUNG,
CONSTITUTIONAL LAW 424 (1978).
A7

that limited the actual application of the clause
prohibitions. In Ogden v. Saunders,16 the Court
held that the prohibitions of the clause extend only
to legislation that retrospectively affects the
obligations of contract. As stated by the Court,
"[t]he most obvious and natural application ... is to
laws having a retrospective operation upon existing
contracts."17 The concept that a contract, at least
for contract clause purposes, includes the laws
existing at the time of its making is derived from
Ogden.18
Sturges v. Crowninshield19 is responsible for the
second limitation. Sturges established that, for the
purposes of contract clause litigation, there is a
distinction between the obligation and the remedy
for enforcing it. As noted by the Sturges Court:
The distinction between the obligation of a
contract, and the remedy given by the
legislature to enforce that obligation, has been
taken at the bar, and exists in the nature of
things. Without impairing the obligation f the

16 25 U.S. (12 Wheat.) 213 (1827).
17 Id. at 303.
18 See Home Bldg. & Loan Ass'n v. Blaisdell, 290 U.S. 398,
429-30 (1934). United States Trust Co. v. New Jersey, 431
U.S. I, 19-20 n.17 (1977).
is 17 U.S. (4 Wheat.) 122 (1819).
A8

r-.

contract, the remedy may certainly be modified
as the wisdom of the nation shall direct.20
Although the remedy-obligation analysis has
changed somewhat in application,21 the distinction
continues to allow a state to enact legislation that
modifies the contractual remedy without
necessitating its impairment.
In the nation's first century,22 the contract
clause was the most widely used protection of
individual property rights against state regulation.
Before 1889 the contract clause had been
considered by the Court in almost forty per cent
of all cases involving the validity of state
legislation. So successfully was its protection
invoked that it was the constitutional
justification for seventy-five decisions in which
state laws were held unconstitutional, almost

20 Id. at 200. The remedy can be modified without impairing
the obligation of contract provided no substantial right
secured by the contract is thereby impaired. See United
States Trust Co. v. New Jersey, 431 U.S. T, 19-21 & n.17
(1977).
21 United States Trust Co. v. New Jersey, 431 U.S. at 19-21 &
n.17.
22 B. WRIGHT, THE CONTRACT CLAUSE OF THE
CONSTITUTION 95 (1938).

A9

half of all those in which such legislation was
declared invalid by the Supreme Court.23
The contract clause began to diminish in
importance in the late nineteenth century, as the
Court began to recognize a new theory, based on
the due process clauses of the fifth and fourteenth
amendments, to protect individual property rights
from state regulation. This theory, called
substantive or economic due process, allowed the
Court to examine the substance of legislation and
the ends to which the legislation was aimed and to
determine independently if the legislation violated
the liberty and property protections afforded by
those amendments.24
The due process theories that developed
provided greater flexibility than the contract clause
because their protections extended to the federal
government as well as to state governments, they
did not require the existence of a contract, and did
not only prohibit retrospective legislation. This
greater flexibility induced the Court to rely on the
substantive due process doctrine rather than on the

■HI

23 Id.
'iS

24 See, e.g., Mugler v. Kansas, 123 U.S. 623, 661 (1887) (while
the challenged statute here was enacted within the state
police powers, there are limits to legislative action and the
judiciary determines if the limits have been surpassed);
Allgeyer v. Louisiana, 165 U.S. 578 (1897) (Court determines
if and when state legislature surpasses its authority); Lochner
v. New York, 198 U.S. 45 (1905) (Court determines that
statute regulating baker's hours has no legitimate purpose).
A10

contract clause.25 These two theories were really
used to accomplish the same result and it was,
therefore, inevitable that the turn-of-the-century
Court would use the more flexible one. Under both
theories the Court could decide that legislation
infringed on property rights, including those rights
based on contract. In the 1930's, the application of
the doctrine of substantive due process began to
decline, as did the importance of the contract
clause. In analyzing legislation, the Court began to
defer to the legislative judgment, determining that
it was not the Court's function to decide the need
for and wisdom of legislation.26 The deference
analysis under both the contract clause and
substantive due process theories was generally
parallel, up through 1977.27
B. Blaisdell Interpretation
A 1934 decision, Home Building & Loan
Association v. Blaisdell,28 is the forerunner of
modern contract clause jurisprudence. Although
Blaisdell established a strict test by which
25 See J. NOWAK, R. ROTUNDA, & J. YOUNG,
CONSTITUTIONAL LAW 425 (1978). See notes 123-128 infra
and accompanying text for a discussion of substantive due
process.
26 See, e.g., West Coast Hotel Co. v. Parrish, 300 U.S. 379, 399
(1937).
27 See notes 170-175 infra and accompanying text.
28 290 U.S. 398 (1934).
All

legislation impairing the obligation of contract is to
be evaluated, the theories expounded in the
Blaisdell decision have been used by subsequent
courts as precedent for lenient evaluation of state
legislation that impairs contracts.29
In Blaisdell, a Minnesota statute that
established a moratorium on the foreclosure of
mortgages was challenged as violating the contract
clause. Specifically, the statute provided a judicial
procedure by which sales on foreclosed real estate
could be postponed and periods of redemption
extended. The legislation was to remain in effect
only for the duration of the declared emergency, the
economic depression of the 1930's, or for a
statutorily established time limit, whichever
occurred first.30
This foreclosure moratorium was upheld against
a contract clause challenge.31 In finding the
legislation constitutional, the Court noted that past
application of the contract clause has "put it beyond
question that the prohibition is not an absolute one
and is not to be read with literal exactness like a
mathematical formula."32 The Court identified as
an impairment of contract the change in foreclosure
provisions because it significantly altered the
29 See, e.g., City of El Paso v. Simmons, 379 U.S. 497 (1965).
99 290 U.S. at 415-19.
31 Id. at 447-48.
32 Id. at 428.
A12

contract remedies. Although the Court found this
remedy impairment to be within the broad
constitutional concept of contract impairment, the
legislation was upheld as a valid exercise of the
state police power.33
In upholding the legislation, the Court
established new standards by which to evaluate the
validity of legislation impairing the obligations of
contracts. The inquiry is not simply whether an
obligation is impaired, but rather "whether the
legislation is addressed to a legitimate end and the
measures taken are reasonable and appropriate to
that end."34 This flexible standard allows the Court
33 Id. at 447-48. Blaisdell, significantly, is the first case in
which the Court goes beyond the explicit language of the
contract clause to resolve a contract clause question. The
theory, however, that a contract impairment can be
constitutionally justified as an exercise of the state's reserved
powers is older than Blaisdell. In Manigault v. Springs, 199
U.S. 473 (1905), the Court said,
It is the settled law of this court that the interdiction of
statutes impairing the obligation of contracts does not
prevent the State from exercising such powers as are
vested in it for the promotion of the common weal, or are
necessary for the general good of the public, though
contracts previously entered into between individuals
may thereby be affected. This power, which in its various
ramifications is known as the police power, is an exercise
of the sovereign right of the Government to protect the
fives, health, morals, comfort and general welfare of the
people, and is paramount to any rights under contracts
between individuals.
Id. at 480.
34 290 U.S. at 438.
A13

to construe the contract clause prohibitions in
harmony with the state police power and to hold a
statute valid as a legitimate exercise of the police
power even if the statute impairs contractual
obligations.
The contract clause analysis that derives from
Blaisdell parallels the economic due process
approach that derives from Nebbia v. New York,35 a
case decided the same year as Blaisdell. Both cases
used an ends-means analysis, and gave a certain
degree of judicial deference to the legislative
determination of the legitimacy of the end.36 The
ends-means analysis basically requires that the
ends sought by the legislation be legitimate and
that the means used to attain that end be rational.
While an ends-means test is flexible and lends
itself to a loose interpretation, the Blaisdell Court

35 291 U.S. 502 (1934) (upholding price control on milk).
36 In Nebbia, the state of New York had established a
regulatory board that had the authority to set minimum
prices for the retail sale of milk. The Court sustained the
legislation as a legitimate exercise of the state's police power.
The Nebbia Court stated that the Court's function "is to
determine in each case whether circumstances vindicate the
challenged regulation as a reasonable exertion of
governmental authority or condemn it as arbitrary or
discriminatory." Id at 536. The decision contained language
suggesting that the Court's use of the substantive due process
doctrine to invalidate economic or welfare legislation was at
an end.

A14

removed this flexibility by adding a five factor test
that must be satisfied before the legislation
working the contract impairment could be found
valid.37 The legitimacy of the ends and the
reasonableness of the means were judged by the
following five factors: (1) an emergency must exist
that furnishes a "proper occasion for the exercise of
the reserved power of the State to protect the vital
interests of the community;"38 (2) the legislation
must be for the protection of a basic interest of
society, not for the mere advantage of particular
individuals;39 (3) the relief must be appropriate to
the character of the emergency that existed;40 ( 4)
the conditions of the legislation must be
reasonable;41 and (5) the legislation must be
temporary and limited to the exigency that called it
forth.42
The Court found each of these five factors
satisfied in Blaisdell. First, the Court found that
the required emergency existed to furnish the
occasion for the exercise of the state police powers.

37 290 U.S. at 444-48.
38 Id at 444.
39 Id at 445.
40 Id.
41 Id at 445-47.
42 Id at 447-48.
A15

The Court took judicial notice of the economic
depression and the effects of the depression on the
real estate market. Recognizing that without this
legislation there would be a loss of homes that
furnish shelter and the means of subsistence in the
state, the Court decided that this first factor was
satisfied.43
Second, the Court found that the legislation was
for the protection of a basic interest of society, not
merely for the advantage of particular individuals.
While the Court did not elaborate on its findings in
this area, the legislation itself made it apparent
that large masses of the state's population would be
affected.44 Third, the Court noted that the
legislation was appropriate to the emergency.
Because the legislation was to remain in effect no
longer than the existence of the emergency and its
use was limited, its character was appropriate to
the emergency.45 Fourth, the Court found that the
conditions imposed by the legislation were
reasonable because the indebtedness continued to
run and the mortgagee was still bound by the loan
contract.46 Factors three and four above can be
characterized as inquiries into the severity of the
impairment. Examining the severity is actually an
analysis of the reasonableness of the means used.
43 Id at 444-45.
44 Id. at 445.
43 Id.
46 Id. at 445-47.
A16

Fifth, the legislation questioned was temporary
because it was to expire by a specified date or at
the end of the exigency, whichever occurred first.47
C Modern Interpretation
The five-factor Blaisdell test was actually an
extension of the substantive due process test
existing at that time. The first factor of the test
examines the legitimacy of the legislative ends and
enables courts to determine independently if the
legislative purpose is valid; the remaining factors
focus on the reasonableness of the means chosen to
meet that end.
Subsequent contract clause decisions have
liberalized the Blaisdell test and eliminated the
five-factor analysis. The evolution began in W.B.
Worthen Co. u. Thomas,48 a case decided in the
same term as Blaisdell. In Thomas, the appellee
Thomas and her husband became indebted to
appellant Worthen for the rent of premises leased
to the husband-wife partnership by Worthen. A
judgment was entered on the amount due but the
husband died before this amount was paid.
Worthen then served a writ of garnishment against
an insurance policy that was issued on the
husband's life, and of which Mrs. Thomas was the
beneficiary.49

47 Id. at 447-48.
48

292 U.S. 426 (1934).
49 Id. at 429.
A17

A few days after the writ of garnishment was
issued, the Arkansas legislature passed a statute
prohibiting garnishment for a debt of certain
insurance benefits, including life insurance.50 When
Worthen was prohibited by the statute from
exercising its garnishment rights, it challenged the
statute as violative of the contract clause. The
Court examined the statute and found that it did
impair the contract between Thomas and Worthen
by exempting some future acquisitions, that is,
insurance benefits, from property available to settle
contract debts.51 However, merely isolating the
existence of a contract impairment did not end the
contract clause analysis. The Thomas Court
recognized that Blaisdell requires that the contract
clause limitations be construed in harmony with
the state's reserved power available "to protect the
vital interests of its people."52 This recognition
brought the Court to an ends-means analysis: Are
the ends legitimate and the means reasonable?
The Court noted that Blaisdell allows for a
statutory impairment if the conditions requiring
the impairment are brought about by an
emergency. However, the Thomas Court noted that,
even assuming the existence of an emergency that
would legitimize the ends of this legislation, the
means used to achieve these ends were not
50 Id. at 429-30.
si Id. at 431-34.
52 Id. at 432-33 (citing Home Bldg. & Loan Ass'n v. Blaisdell,
290 U.S. 398 (1934)).

A18

7/

'7-

reasonable.53 “[T]he legislation was not limited to
the emergency and set up no conditions apposite to
emergency relief."54 In contrast, the statute
validated in Blaisdell limited its relief to, at most,
the existence of the emergency creating the heed
for the legislation. Thus, the Thomas Court found
that the Arkansas statute satisfied neither the fifth
factor of the Blaisdell test (temporariness) nor the
standard of "reasonable means. "55 The statute was,
therefore, held unconstitutional.
Thomas is significant in that it involves the
classic contract clause problem, a statute impairing
a debtor-creditor relationship. It is necessary to
recall that the contract clause was adopted to
prevent state interference with precisely these
kinds of relationships.56 In Thomas, the Court used
both the five-factor Blaisdell analysis (although it
only had to analyze the last factor to find the test
was not fulfilled) and, more significantly, the
substantive due process ends-means analysis of
Blaisdell to determine that the legislation violated
the contract clause.
53 292 U.S. at 433.
54 Id. at 432.
55 Id. at 434. "In the instant case, the relief sought to be
afforded is neither temporary nor conditional.... We find the
legislation, as here apphed, to be a clear violation of the
constitutional restriction." Id.
56 See notes 7-10 supra and accompanying text.
A19

In W.B. Worthen Co. v. Kavanaugh,57 the Court
grappled further with the tests set down in
Blaisdell and with their application to state
legislation impairing contracts. Kavanaugh
involved state legislation that extended the period
of foreclosure after assessment on municipal bonds.
The foreclosure extension left the bondholder
without an effective remedy for at least six and
one-half years and during that period there was no
enforceable obligation to pay installments of
principal or accruing coupons. The legislation was
passed under a declaration of emergency. 58
The bondholders contested the validity of these
statutory changes as being in violation of the
contract clause.59 The Kavanaugh Court agreed
that the statute unconstitutionally impaired a
contractual obligation.60 The main basis for
invalidating the legislation was the Court's finding
that the legislative means used to implement the
changes in the foreclosure provision were not
reasonable. The Court contrasted the six and onehalf year period of foreclosure moratoriums with
the two-year period in Blaisdell. The Court also
57 295 U.S. 56 (1935).
58 Id. at 57-59.
59 Id. at 59.
60 " Not

even changes of the remedy may be pressed so far as
to cut down the security of a mortgage without moderation or
reason or in a spirit of oppression. Even when the pubhc
welfare is invoked as an excuse, these bounds must be
respected." Id. at 60.
A20

noted that, in Blaisdell, the debtor was required to
pay at least the rental value of the property during
the moratorium and that no similar provision was
made in the Kavanaugh statute.61
Significantly, the Kavanaugh decision did not
mention the five-factor test of Blaisdell. Rather, the
Court analyzed the contract impairment on the
basis of an ends-means analysis. In utilizing this
ends-means analysis, the Kavanaugh Court's
analysis paralleled the analysis that was beginning
to emerge in substantive due process litigation.
Kavanaugh was decided between Nebbia v. New
York62 and West Coast Hotel v. Parrish.63 In that
period, the Court was coming to grips with a theory
that would require it to defer to the legislative
evaluation of the legitimacy of the ends of the
legislation, instead of allowing the Court to decide
if those ends were legitimate. As a step toward
that, the Kavanaugh Court took a liberal view of
the permissible scope of the legislative ends. The
Kavanaugh Court accepted the state legislature's
declaration of an emergency and did not attempt to
undertake an independent determination.64
Contrast this with the Court's actions in Blaisdell,
61 Id. at 63. "With studied indifference to the interests of the
mortgagee or to his appropriate protection [the legislature]
has taken from the mortgage the quahty of an acceptable
investment for a rational investor." Id. at 60.
62 291 U.S. 502 (1934).
63 300 U.S. 379 (1937).
64 295 U.S. at 60.
A21

in which the Court outlined and examined the
great depression, and concluded that the situation
created the need for the legislation.65 The Blaisdell
Court, while giving lip service to theories of
deference, engaged in a judicial analysis of the need
for the legislation.
Treigle u. Acme Homestead Association,66 a 1936
decision, continued the evolutionary process of the
legitimate ends-reasonable means test set out in
Blaisdell. In Treigle, the state enacted legislation
that modified the withdrawal procedures for
shareholders of domestic building and loan
associations. The modification was enacted after
appellant, a shareholder, filed the statutorily
required withdrawal notice. Under the new
legislation, the appellant would have received less
of his money immediately.67 The shareholder sued
the building and loan association, alleging that the
statute violated the contract clause. The Court
analyzed the challenged statute only under an
ends-means analysis,68 without mention of the fivefactor analysis of Blaisdell. The Court continued
using the more liberal view established by

65 290 U.S. at 422-23, 444.
66 297 U.S. 189 (1936).
67 Id. at 191-95.
68 Id. at 197. A proper exercise of the police power must be
"for an end which is in fact public and the means adopted
must be reasonably adapted to the accomplishment of that
end." Id.
A22

*

Kavanaugh as to legitimate ends, although it held
that this legislation unconstitutionally violated the
contract clause. The Court found there was ho
connection between the stated aim of the statute
and its actual effect.69
Although the Court held that the statute was
unconstitutional, its use of the ends-means analysis
began to parallel even more closely the substantive
due process analysis. The Court continued to hold a
more liberal view as to the legitimacy of the
legislative ends, but insisted upon a close
relationship between the ends and the means.70
Veix v. Sixth Ward Building & Loan
Association,71 a case decided in 1940, like Treigle,
illustrated that despite lip service to Blaisdell's
theory, the Court had in fact abandoned the
Blaisdell test. In Veix, the legislature passed a
statute changing the withdrawal procedures for
shareholders of building and loan associations. A
shareholder challenged the change, contending that
it violated the contract clause. The Court upheld
the statute against this challenge, holding that
such a change was within legislative power.72

69 Id. at 197-98.
70 See note 123 infra.
77 310 U.S. 32 (1940).
72 Id. at 39-41.
A23

The Court used the ends-means analysis in
determining the validity of the challenged statute.
Although the legislation originated in the
emergency situation presented by the depression,
the legislation was of a permanent nature. This
permanency, however, did not offend the Court.
When examining the legislation, the Court noted
its permanency and stated, "We are here
considering a permanent piece of legislation. So far
as the contract clause is concerned, is this
significant? We think not."73 Thus, while the Court
may not have explicitly rejected the five-factor
Blaisdell analysis, they overtly rejected the fifth
factor requiring temporariness.
Significant is the loose application of the endsmeans test. As in both Treigle and Kavanaugh, the
Veix Court's contract clause analysis paralleled its
substantive due process analysis. In keeping with
the substantive due process ends-means test of
West Coast Hotel v. Parrish74 and its progeny, the
Court deferred to the legislative judgment of the
legitimacy of the ends and did not insist on a tight
fit between the ends and the means. In fact, the
Court did not examine with any depth the ends and

73 Id, at 39.
74 300 U.S. 379 (1937). See note 123 infra.
A24

i?r

the means. Rather, much of the opinion was merely
a justification of the state's actions.75
The 1965 case of City of El Paso v. Simmons76
was the last contract clause case decided by the
Supreme Court before 1977. The legislation in El
Paso changed a state law that allowed purchasers
of state land who defaulted on payments to redeem
the land at any time unless rights of third parties
intervened. In 1941, the law was amended to limit
reinstatement rights to five years from the
forfeiture date. The land directly involved here was
forfeited in 1947 (thus, the statute had no
retroactive effect) and the appellee tried to restore
his title more than five years after forfeiture. The
appellee challenged the statute as
unconstitutionally violating the contract clause.
The Court upheld the statute, holding that it did
not violate the contract clause.77
The purpose of the statute was to end land
speculation. Under the former statute, forfeiting
purchasers would let their titles remain dormant
for years and then reinstate title if and when oil
75 The Court decided additional contract clause cases between
1940 and 1965. See, e.g. East New York Sav. Bank v. Hahn,
326 U.S. 230 (1945); Faitoute Iron & Steel Co. v. City of
Asbury Park, 316 U.S. 502 (1942). The only case through 1977
holding state action unconstitutional as violating the contract
clause was Wood v. Lovett, 313 U.S. 362 (1941).
™ 379 U.S. 497 (1965).
77 Id at 516-17.
A25

and gas were found on the land. The long shadow
cast by perpetual possibility of reinstatement gave
rise to much litigation between forfeiting
purchasers and the state. The legislation was
designed to remedy this situation.78
The Court, in upholding the statute, continued
to use a loose and liberal ends-means analysis. In
examining the legitimacy of the ends, the Court
paralleled the substantive due process policies of
deference to legislative judgment. Once within the
area of the state reserved power, the Court
recognized that it "must respect the 'wide discretion
on the part of the legislature in determining what
is and what is not necessary.' "79 Policies of
deference, combined with the Court's acceptance of
a loose fit between the ends and the means, are not
equal to the Blaisdell test. In El Paso, the Court
did not attempt to apply any part of the five-factor
Blaisdell test. Rather, it used a more liberal
application of the ends-means analysis.
The El Paso decision spurred speculation that
the contract clause prohibitions, in their current
application, had little practical effect in protecting
property rights. Justice Black, dissenting in El
Paso, expressed the belief that the clear guaranties

78 Id, at 512-13.
79 Id at 508-09 (quoting East New York Sav. Bank v. Hahn,
326 U.S. 230, 232-33).
A26

v.

3.

of the contract clause had been balanced away.80
Other commentators believed "the clause is of
negligible importance, and might as well be
stricken from the Constitution."81 It was further
voiced that "results [of litigation] might be the
same if the contract clause were dropped out of the
Constitution, and the challenged statutes all
judged as reasonable or unreasonable deprivations
of property" under the due process clause. 82
D. United States Trust Co. v. New Jersey
Interpretation
Contrary to the fears and beliefs of
commentators,83 the post-Blaisdell interpretation of
the contract clause prohibitions did not dictate a
80 379 U.S. at 517 (Black, J., dissenting) ("In this case I am
compelled to dissent from the Court's balancing away the
plain guarantee of Art. I, § 10 ...").
81 H. CHASE & C. DUCAT, CORWIN’S THE
CONSTITUTION AND WHAT IT MEANS TODAY 105 (1974
ed.).
82 Hale, supra note 7, at 890-91.
83 Constitutional law textbook writers, too, have been very
skeptical of the present importance of the contract clause and
have treated it accordingly. See E. BARRETT, JR.,
CONSTITUTIONAL LAW CASES AND MATERIALS 571
(5th ed. 1977) ("In view of the relative lack of present
importance of the contract clause, the coverage here will be
limited."); G. GUNTHER, CASES AND MATERIALS ON
CONSTITUTIONAL LAW 604 (9th ed. 1975) ("Yet the
contract clause deserves brief separate attention here.").
A27

permanent impotence for the clause. United States
Trust Co. v. New Jersey84 indicates that the
contract clause prohibitions are not without
practical effect if the state is a party to the
impaired contract.85 United States Trust involved a
statutory covenant between bondholders of the Port
Authority of New York and New Jersey and the
Port Authority itself. This covenant, providing the
security provisions for the bonds, was repealed by
the New Jersey and New York legislatures,86
resulting in a total abrogation of this particular
provision of the bonds. Bondholders challenged this
repeal as an unconstitutional impairment of the
obligation of contract. The Court agreed with the
bondholders and found the statutory repeal to
violate the contract clause.87 Significantly, the
84 431 U.S. 1 (1977). United States Trust is a 4-3 decision.
Justice Stewart took no part in the decision and Justice
Powell took no part in the consideration or decision of the
case.
85 Id. at 32. See also McTamaney, United Stales Trust
Company of New York v. New Jersey: The Contract Clause in
a Complex Society, 46 FORDHAM L. REV. 1 (1977);
Kayajanian, United States Trust Co. v. New Jersey: The
Resurrection of the Contract Clause, 5 W. ST. L. REV. 189
(1978); Comment, Revival of the Contract Clause, 39 Ohio ST,
L.J. 195 (1978).
86 431 U.S. at 14. Although statutory repeal was passed by
both New Jersey and New York, suit was filed only against
New Jersey.
87 Id. at 32. The dissent questioned whether there was
actually any impairment of contract. It is noted by the dissent
that the statute imposes only inconsequential burdens and
A28

Court used a Blaisdell analysis. In this respect, the
United States Trust Court recognized that
legislation can impair the obligations of contract
and still be constitutional if that legislation
satisfies the legitimate ends-reasonable means
test.88 Further, the Court continued to recognize
that it is a legislative function to determine the
"necessity and reasonableness of a particular
measure. "89 However, the Court rejected the
concept of deference to the legislative
determination of necessity and reasonableness in
instances in which the state is a party to the
contract affected by the legislation: "When a State
impairs the obligation of its own contract, the
reserved-powers doctrine has a different basis."90
Thus, the Court resurrected the strict Blaisdell test
in the limited context in which the state impairs a
contract to which it is a party.

does not impair any practical or substantial rights. Id. at 34
(Brennan, J., dissenting). Because there was no actual
showing of any financial loss by the bondholders, the dissent
may well be correct. If there is no actual loss then no
impairment should be found because the Constitution is
"intended to preserve practical and substantial rights, not to
maintain theories." Faitoute Iron & Steel Co. v. City of
Asbury Park, 316 U.S. 502, 514 (1942) (quoting Davis v. Mills,
194 U.S. 451,457 (1904)).
88 431 U.S. at 22.
89 Id. at 23.
90 Id.

A29

The strict United States Trust test is not
absolute. A state may, under certain circumstances,
be able to pass legislation that impairs contracts to
which it is a party without violating the contract
clause. An impairment of a state's own contractual
obligations "may be constitutional if [that
impairment] is reasonable and necessary to serve
an important public purpose."91 The words
"reasonable and necessary" are read differently and
more strictly in the instances in which a state
legislative act impairs its own contracts. "In
applying this standard, however, complete
deference to a legislative assessment of
reasonableness and necessity is not appropriate
because the state's self-interest is at stake. A
governmental entity can always find a use for extra
money."92 Thus, the Court held that when a state
modifies its own contract in its own self-interest, it
is a function of the judiciary to determine if the
modification satisfies the legitimate endsreasonable means test. This is in contrast to the
almost absolute deference to the legislative
determination of need exhibited in City of El Paso
v. Simmons, which also involved a state
modification of a contract to which the state was a
party.93 The United States Trust Court's
elaboration on their deference test illustrates the
similarity of its test both to Blaisdell and the
substantive due process analysis of that era.
91 Id. at 25 (emphasis added).
92 Id. at 25-26.
93 See notes 76-79 supra and accompanying text.
A30

The United States Trust test is this: When the
state acts in its self interest in modifying the
contract, the "necessary and reasonable" test is
given a strict application and is applied without
deference to the legislature. In these
circumstances, "reasonable" is interpreted to mean
that the situation requiring the modification was
unforeseeable.94 "Necessary" is satisfied only if
there are no less drastic alternatives that could
implement the modification accomplished by the
legislation.95 This Blaisdell-type test has already
had significant impact in contract clause challenges
to state legislation that impairs state contracts.96
94 431 U.S. at 31-32
95 Id. at 29-31.
96

Fiscal problems are now prevalent in many municipalities
and states. Whether these situations will lead to the
impairment of contracts in state financial self-interest is
unknown. If this does occur, however, the United States
Trust analysis will have to be used to determine if these
impairments are constitutional. For an excellent comment
dealing with New York City's fiscal crisis, written before the
United States Trust decision, see Comment, The
Constitutionality of the New York Municipal Wage Freeze and
Debt Moratorium: Resurrection of the Contract Clause, 125 U.
PA. L. REV. 167 (1976).
Further effect of the United States Trust case could
extend to situations such as those presented by a recent (June
1978) California initiative (commonly known as the JarvisGann initiative), which limits the assessment and taxing
powers of state and local governments. CAL. CONST. Art.
XIIIA. If this initiative, by limiting state and local revenue,
were to cause the impairment of contract, the impairment
would have to satisfy the United States Trust analysis to be
A31

Significantly, United States Trust, by
resurrecting the Blaisdell test in a limited context,
has become a harbinger for Blaisdell s across-theboard resurrection. This resurrection became a fact
in 1978, in the case of Allied Structural Steel Co. v.
Spannaus,97 when the Court specifically
incorporated the Blaisdell factor analysis into its
decision-making process. Through Allied the strict
Blaisdell test, with its refusal to defer to the
legislative judgment of need, became a fact for
contract clause litigation, while remaining a piece
of history for litigation involving other economic
concerns not protected by the contract clause. As
will be shown, the Court continues in the
traditional approach when the due process clause is
involved.

r

!

constitutional. For example, in Sonoma County Org. of Pub.
Employees v. County of Sonoma, 23 Cal. 3d 296, 591 P.2d 1,
152 Cal. Rptr. 903 (1979), the California Supreme Court held
that a state statute, which distributed bail-out funds to
municipalities on the condition that pay hikes and cost of
living increases were not granted, was unconstitutional as
violating the contract clause of the Constitution. The Court
noted that United States Trust is the "most useful [decision]
in resolving the problem at hand." Id at 307, 591 P.2d at 6,
152 Cal. Rptr. at 908. Given the trend toward adopting this
type of tax restrictive legislation, it seems inevitable that
more of these contract clause issues will arise. When they do,
the standards from United States Trust will control.
97 438 U.S. 234 (1978).

A32

Y:

II. ALLIED STRUCTURAL STEEL: THE
OPINION
Allied Structural Steel (the company) brought
an action challenging the constitutionality of the
Minnesota Private Pension Benefits Protection Act
(Pension Act) on the grounds that it violated the
contract clause.98 Although the company's principal
place of business was in Illinois, it maintained an
office in Minnesota with thirty employees. In 1963
the company voluntarily adopted a pension plan,
over which it retained a complete right to
terminate or modify. The company's control over
the plan was complete except for those
contributions already made or rights already
vested.99 Only the company contributed to the plan,

98 Id at 239-40. At the district court level the statute was
challenged as violating the due process, equal protection, and
commerce clauses of the Constitution, as well as the contract
clause. Fleck v. Spannaus, 449 F. Supp. 644 (D. Minn. 1977).
Only the contract clause challenge was considered at the
Supreme Court level.
99 Rights would vest under this pension plan if an employee
aged 65 or more retired without satisfying any length of
service requirement (size of pension would reflect length of
service with the company). An employee could also receive a
pension, payable at 65, if he met one of the following
requirements: (1) he had worked 15 years for the company and
reached the age of 60; (2) he was at least 55 years old and the
sum of his age and his years of service with the company was
at least 75; or (3) he was under 55 hut the sum of his age and
years of service with the company was at least 80. Once rights
vested under the pension plan, a termination of employment
would not affect right to payment. 438 U.S. at 236-38.
A33

and those contributions were made yearly, based on
actuarial predictions.
In 1974 Minnesota enacted the Pension Act,100
which provided that an employer with over 100
employees, at least one of whom worked in
Minnesota, who provided a pension plan satisfying
section 401 of the Internal Revenue Code,101 was
subject to the Act. It provided that if such an
employer ceased doing business altogether or closed
its Minnesota office, that employer would be
subject to a pension fund charge. This charge was
assessed if the assets in the company's plan were
not sufficient to provide full pensions for employees
who had worked ten years or more. 102
After the passage of the Pension Act, the
company began closing its Minnesota office.
Because the company employed over 100 people
and met the other criteria of the Act, Minnesota
imposed a pension funding charge. Minnesota
notified the company that it owed approximately
$185,000 under the terms of the Act.103 Allied
Structural Steel then brought suit in federal

s.
100

Minn. Stat. §§ 18IB.01-181B.17.

The company's pension plan qualified under I.R.C. § 401
(1976). 438 U.S. at 236.
101

!°2 Id at 238.
Id at 239.
A34

district court104 challenging the constitutionality of
the Act and seeking both declaratory and injunctive
relief. The company alleged that the Pension Act
unconstitutionally impaired the contract between
itself and its employees. The district court held the
Act valid,105 relying almost exclusively on United
States Trust106 to reach its decision. The court
noted that because the state was not a party to the
impaired contract, great deference had to be given
to the legislative judgment that the impairment
was reasonable and necessary to accomplish
legitimate policy aims.107 With such great deference
to the legislative judgment, the district court could
find no basis on which to hold the Act
unconstitutional. The company appealed the
district court decision, eventually to the Supreme
Court. The Supreme Court reversed and held that
the Minnesota Pension Act unconstitutionally
impaired the obligation of contract.108
In reversing, the Court noted that the Pension
Act had a severe and substantial impact on the
contractual relationship between the company and
104

Fleck v. Spannaus, 449 F. Supp. 644 (D. Minn. 1977)
(mem.). See also Fleck v. Spannaus, 421 F. Supp. 20 (D. Minn.
1976) (challenging the enforceability of the Pension Act).
105

449 F. Supp. at 654.

106

431 U.S. 1 (1977).

107

449 F. Supp. at 649-51.
438 U.S. at 250-51.
A35

its employees. The Court held that by
superimposing pension obligations beyond those
the company had voluntarily agreed to undertake,
the Pension Act substantially altered the
company's contractual expectations. The mere
alteration of contract, however, did not necessitate
finding the statute unconstitutional. The contract
clause is not an absolute prohibition on the
impairment of contract obligations.109 Clause
prohibitions must be construed in harmony with
the reserved power of the states, particularly
exercises of the police power. The Court recognized
the existence and viability of both the contract
clause and the state police power and the conflict
they presented in Allied, and proceeded to
determine which prevailed under these facts.
The Court, in an opinion written by Justice
Stewart, began their analysis by noting that the
severity of the impairment determines the
strictness of the inquiry into the nature and
purpose of state legislation. In other words, the
greater the impairment, the less deference to the
legislative judgment. The Court proceeded to find
that the Pension Act severely impaired the
company's contract by retroactively increasing the
company's obligation to make pension plan
contributions. Noting that with pension plans the
occurrence of major unforeseen contingencies can

109

Id. at 241-42. See also Home Bldg. & Loan Ass'n v.
Blaisdell, 290 U.S. 398 (1934), City of El Paso v. Simmons,
379 U.S. 497 (1965).
A36

affect a company's solvency,110 the Court found that
this Pension Act severely disrupted the company's
contractual expectations. Because of the severity of
the contractual disruption and the legislative
failure to demonstrate the need for this disruption,
the Court held that "[t]he presumption favoring
'legislative judgment as to the necessity and
reasonableness of a particular measure'... simply
cannot stand in this case."111
In holding the Pension Act unconstitutional, the
Court retreated from the post-Blaisdell broad
reading of what is in the public interest and
readopted the strict Blaisdell test of public interest.
In doing so, the Court considered three of the five
Blaisdell factors112 and analyzed the challenged
legislation in relation to them. 113 The Allied Court
added an additional factor from Veix, 114 not
no 438 U.S. at 247. The majority cites to Los Angeles Dept, of
Water & Power v. Manhart, 435 U.S. 702, 721 (1978), to
support the proposition that unforeseen contingencies in
pension plans can affect solvency. An excellent article on the
effect of unforeseen termination of pension plans, the evil the
Minnesota Legislature was attempting to eliminate, is
Bernstein, Employee Pension Rights When Plants Shut Down:
Problems and Some Proposals, 76 HARV. L. REV. 952 (1963).
111 438 U.S. at 247 (quoting United States Trust Co. v. New
Jersey, 431 U.S. 1, 23 (1977))
112 See notes 37-47 supra and accompanying text.
113 See notes 143-45 infra and accompanying text.
114 See text accompanying notes 71-74 supra.
A37

present in Blaisdell. By selecting four factors that
had to be satisfied before the impairment could be
held constitutional, the Allied Court set up a strict,
and in this case, insurmountable test. Therefore,
the finding of unconstitutionality was inevitable.115
III. ALLIED STRUCTURAL STEEL:
DEVIATIONS AND IMPACT
Allied deviates from modem contract clause
theory and analysis in three major areas. First, the
Allied Court strictly applies the ends-means
analysis by accepting only a narrow area of
permissible ends, in contrast to recent precedent;116
second, the Court refuses to maintain the
presumption favoring the legislative judgment as to
the necessity and reasonableness of the
legislation;117 and, third, the Court expands the
concept of what the term contract encompasses for
purposes of analyzing contract impairment.118 The
impact of these deviations will be significant. The
Court's analysis completes the resurrection of
115 "But we do hold that if the Contract Clause means
anything at all, it means that Minnesota could not
constitutionally do what it tried to do to the company in this
case." 438 U.S. at 250-51.
116

Id at 248-49. See text accompanying notes 119-67 infra.

117 438 U.S. at 247-48. See text accompanying notes 168-86
infra.
118 438 U.S. at 244-47 & n.16. See text accompanying notes
187-222 infra.
A38

Blaisdell started by United States Trust and
implicitly overrules the modem contract clause
interpretation that evolved after the Blaisdell case.
A. Strict Application of Ends-Means AnalysisNarrow Scope for Permissible Ends
Since the 1890's, the Court has consistently
applied both an ends-means test119 and a test of
permissible ends to challenged legislation under
both the due process and contract clauses.120 Since
that time, the formulation of the test has remained
the same, but its application has varied. The Court
has consistently held that the end (purpose) of
legislation must be within a legitimate area of
governmental concern. The differences in
application have resulted from the Court’s view of
what constitutes a legitimate end and the degree of
deference the Court affords to the legislative
determination of whether an end is permissible.121

119 See text accompanying note 36 supra.
129 L. TRIBE, AMERICAN CONSTITUTIONAL LAW 436-42
(1978).
121 Compare Adkins v. Children's Hosp., 261 U.S. 525 (1923)
with West Coast Hotel Co. v. Parrish, 300 U.S. 379 (1937). In
Adkins, the Supreme Court held that a minimum wage law
assigned to protect women laborers was unconstitutional
because the end of the legislation fell outside of the
permissible range of legislative control. 261 U.S. at 554. In
West Coast Hotel, however, similar legislation was upheld on
the rationale that the protection of women is a legitimate
legislative end. 300 U.S. at 398. These disparate conclusions
A39

The ends-means analysis is closely related to the
permissible ends analysis. The ends-means
analysis requires not only that the legislation be
aimed at a permissible end of government, but also
that the means used to meet that end be
reasonable. The application of this test has
varied.122 At times the Court has insisted on a close
relation between the ends and the means, while at
other times, the Court has deferred to the
legislative judgment of what is a reasonable means
to achieve the ends.
During the substantive due process era123 of
1880-1935 the Court insisted on a close relation
are primarily the result of a shift in the Court's perception of
what constitutes a legitimate legislative end.
122 Compare Allied Structural Steel Co. v. Spannaus, 438 U.S.
234 (1978) with Usery v. Turner Elkhorn Mining Co., 428
U.S. 1 (1976).

123 Substantive due process was a theory utilized by the
Court, between Lochner v. New York, 198 U.S. 45 (1905), and
West Coast Hotel Co. v. Parrish, 300 U.S. 379 (1937), to void
any economic or social legislation that the court believed
unreasonably infringed on the liberty to contract. The
substantive due process test required that the government
use means, the legislation, that bore some reasonable relation
to a legitimate end. While the test is substantially the same
today, during the substantive due process era, the Justices
voided any law that did not satisfy their personal belief as to
what was necessary. Thus, independent judicial review of
legislation made the constitutionality of the legislation
depend on the personal views of individual Justices. See, e.g.,
Lochner v. New York, 198 U.S. 45 (1905) (regulation of
bakers' hours held to violate due process); Hammer v.
A40

between the ends and the means of the legislation,
and strictly construed the legitimate ends of
government.124 An example of the Court's analysis
Dagenhart, 247 U.S. 251 (1918) (child labor law held
unconstitutional); Adkins v. Children's Hospital, 261 U.S. 525
(1923) (minimum wage law held unconstitutional).
It seems that the only way social or economic legislation
could be validated during this period was to present the court
with a "Brandeis Brief," a brief containing massive
documentation to justify the legislation. See Muller v. Oregon,
208 U.S. 412, 419 n.l (1908).
The substantive due process doctrine died in the 1930's,
and was replaced with the doctrine that called for the Court
to defer to the legislative judgment as to the necessity and
reasonableness of the legislation. See, e.g., Olsen v. Nebraska,
313 U.S. 236, 246 (1941) ("We are not concerned, however,
with the wisdom, need, or appropriateness of the legislation.
Differences of opinion on that score suggest a choice which
'should be left where... it was left by the Constitution-to the
states and to Congress.'") (citations omitted); Day-Brite
Lighting, Inc. v. Missouri, 342 U.S. 421, 423 (1952) ("Our
recent decisions make plain that we do not sit as a super­
legislature to weigh the wisdom of legislation nor to decide
whether the policy which it expresses offends the public
welfare."). See generally Strong, The Economic Philosophy of
Lochner: Emergence, Embrasure and Emasculation, 15 ARIZ.
L. REV. 419 (1973).
The rationales that led to deferring to the legislative
judgment in the substantive due process area also led to a
policy of deference when the contract clause was involved.
See, e.g., East New York Sav. Bank v. Hahn, 326 U.S. 230,
233 (1945) ("[W]e must respect the 'wide discretion on the
part of the legislature in determining what is and what is not
necessary.'") (citations omitted).
124

See generally Strong, The Economic Philosophy of Lochner:
Emergence, Embrasure and Emasculation, 15 ARIZ. L. REV.
419 (1973).
A41

during that period is Lochner v. New York.125 The
legislation challenged in Lochner prohibited bakers
from working more than sixty hours a week. The
Court held that the statute violated the due process
clause of the fourteenth amendment. The Court
found that the statute was not designed to achieve
a permissible end of government, in that it
infringed on the liberty to contract encompassed in
the due process clause. Further, the Court held
that there was no connection between the end
sought-clean and healthful bread-and the means
used to achieve those ends-limiting baker's
hours.126
In West Coast Hotel v. Parrish,127 the Court
rejected the substantive due process analysis of
Lochner, which required a close fit between the
ends and the means and close scrutiny of the ends
of the legislation. During the period between West
Coast Hotel and Allied, in both the contract and
due process clause analyses, the Court deferred to
the legislative determination of the legitimacy of
the ends, and utilized a loose ends-means analysis.
This application of the test has resulted in the
Court upholding legislation that would have been

198 U.S. 45 (1905).
126 Id. at 56-57.
127 300 U.S. 379 (1937).
A42

■v

i .

declared invalid during the substantive due process
era. 128
The above discussion directly relates to the
Allied Court's analysis. Allied, therefore,
represents a readoption of the strict tests used
during the substantive due process era. This return
to the substantive due process tests is manifested
in two ways: (1) the Court strictly limits the
permissible range of legislative ends when the
legislation impairs contracts; and (2) the Court
requires a very close fit between the ends of the
legislation and the means used to achieve those
ends.
1. Strictly limiting the permissible ends of
legislation
Allied implicitly limited the permissible ends of
legislation by requiring that the challenged
legislation "deal with a broad, generalized economic
or social problem."129 It is, of course, the Court that
will decide whether the end of the legislation
satisfies the broad societal interest criterion. The
Court recognized that contracts are subject to the
valid exercise of police power, but proceeded to
state that the contract clause does "impose some
limits upon the power of a State to abridge existing
contractual relationships. » 130 The requirement that
128

See note 121 supra.

129 438 U.S. 250.
130

Id. at 242 (emphasis in original).
A43

I

the legislation deal with a broad societal interest
therefore limits a state's police power to interfere
with contractual relations.
The Court began its analysis by suggesting that
the Minnesota Pension Act was invalid because the
Act did not address all aspects of the problem.131
This suggested invalidity results from the Pension
Act's failure to protect a broad societal interest.
However, the Court's analysis of this factor
contains two misconceptions. First, it is well
established that a state, in acting for the general
welfare, need not address the entire problem. In
rectifying a problem "the legislature is not bound to
occupy the whole field. It may strike at the evil
where it is most felt."132 The Minnesota
legislature, in adopting the Pension Act, was
simply alleviating the problem where it was most
felt. There are indications133 that the Minnesota
131 Id. at 250. The statute's "narrow aim was levelled not at
every Minnesota employer, not even at every Minnesota
employer who left the State, but only at those who had in the
past been sufficiently enlightened as voluntarily to agree to
establish pension plans for their employees." Id.
132 Carmichael v. Southern Coal & Coke Co., 301 U.S. 495,
519-20 (1937). The majority opinion in Allied recognizes that
the legislature first felt this problem when an employer in the
state terminated some of its operations within the state. 438
U.S. at 247-48 (quoting Fleck v. Spannaus, 449 F. Supp. 644,
651 (D. Minn. 1977) (mem.)).
Fleck v. Spannaus, 449 F. Supp. 644, 651 (D. Minn. 1977)
(mem.) ("It seems clear that the problem of plant closure and
pension plan termination was brought to the attention of the
Minnesota legislature when the Minneapolis-Moline Division
133

A44

a

legislature was aware that at least one134
corporation with employees in Minnesota was
contemplating terminating its Minnesota
employees and closing its operation within the
state. The state, aware of this potential termination
of operations, enacted the Pension Act to ensure
that employees similarly situated would receive
their expected pension benefits.135 Thus, it is clear
that the legislature initially perceived the problem
in a certain area and sought to rectify it there first.
The second misconception in the Court's
analysis is its interpretation of the "broad societal
interest" requirement, a concept derived from
Blaisdell.136 The Allied Court stated that when an
exercise of a state's police power impairs the
obligation of a contract, such exercise should
"protect a broad societal interest rather than a
narrow class."137 In using this language, the Allied
of White Motor Corporation closed one of its Minnesota Plants
and attempted to terminate its pension plan.").
134

Id. For the results of the litigation as to the applicability of
the Pension Act to White Motor Corporation, sec Malone v.
White Motor Corp., 435 U.S. 497 (1978).
135 449 F. Supp. at 651. "There is absolutely no evidence from
the legislative history or debates on the Pension Act to
support Allied's claim that the Act was aimed solely at White
Motor Corporation." Id.
133 290 U.S. 398, 445 (1934).
137 438 U.S. at 249.

A45

Court interpreted the societal interest factor to
require that a large percentage of society must be
directly benefited by the legislation. Thus, the
Allied Court interpreted this factor to require that
a specific number of individuals be benefited. But
what Blaisdell actually required was that the
legislation be "not for the mere advantage of
particular individuals but for the protection of a
basic interest of society."138 There is more than a
semantic difference between the Allied and the
Blaisdell analyses of the societal interest factor.
Blaisdell was not concerned with the numbers
directly benefited by the challenged legislation.
Rather, the test in Blaisdell was whether the
statute was designed to benefit the general welfare.
That not all of society was benefited directly by the
statute attacked in Blaisdell is apparent from its
scope; it afforded protection only to individuals who
owned real property that was subject to foreclosure.
139 But the statute was interpreted as effecting a
broad societal benefit by allowing individuals to
retain their real property, even though not all of
society was directly aided.
The statute held unconstitutional in Allied could
be construed to benefit a broad societal interest,
even though the direct benefits of the statute
accrued to only a narrow class.140 Pension plans
138 290 U.S. at 445.
138 Id. at 416-20.
See Fleck v. Spannaus, 449 F. Supp. 644, 649-50 & n.6 (D.
Minn. 1977) (mem.).
140

A46

provide economic benefits to those who reach a
certain age. The societal interest in aiding the
financial stability of the elderly is undeniable.
Financial stability enables the elderly to spend
money, thus economically benefiting the
surrounding community. Further, if the elderly are
provided for in pension plans, neither public nor
private welfare agencies will have the burden of
ensuring the economic well-being of these
individuals. Thus, while the statute might
numerically provide for only a "narrow class," it
does satisfy the Blaisdell requirement of protecting
a basic societal interest, rather than particular
individuals. Allied's insistence that a statute
benefit a certain number of people before it can be
held to be a legitimate exercise of the police power,
distorts the Blaisdell requirement, and makes it
extremely difficult for a statute to satisfy the Allied
societal interest criterion. Legislation is often
enacted for the immediate benefit of a narrow class,
with the ultimate benefits trickling down to the
broad base of society. By adopting this narrow view
of legitimate police power exercises, the Court is
subjecting much of this legislation to eventual
contract clause challenges.
Further, the Court's insistence that a broad
societal interest be served by the legislation is a
reversion to the theories predominate in Lochner141
and to the substantive due process era limitation
on legitimate ends. In that era the Court insisted
141 198 U.S. 45 (1905).
A47

that legislation directly benefit the public as a
whole. The Court rejected this notion in West Coast
Hotel, when it realized that laws helping certain
narrow groups help the public as a whole as well.142
2. Strict application of ends-means analysis
In addition to resurrecting the Lochner
restriction on legitimate ends, Allied resurrected
the Lochner strict scrutiny of the ends-means
analysis, which requires a close fit between the
ends and the means. In analyzing the relation
between the ends and the means, the Allied Court
adopted factors from earlier contract clause cases.
Three factors, developed in earlier cases, were used
to examine the reasonableness of the means used to
implement the legislative purpose: (I) whether the
legislation deals with an emergency situation, as in
Blaisdell143 (2) whether the legislation is temporary
in operation, as in Blaisdell;144 and (3) whether the
legislation operates in an area already subject to
regulation, as in Veix.145 While these factors were
important and, perhaps even determinative, in the
cases from which they originate, the Court has
never before suggested that any or all of these
factors must be satisfied to justify the exercise of
442 300 U.S. 379, 385 (1937).
143 290 U.S. at 444-45.
144 Id. at 447.
143 310 U.S. at 38.
A48

.-

the state reserved powers. Allied, however, imposed
upon the state the duty of satisfying these factors
before the statute could be found to be a justified
exercise of state reserved power. The Court
subjected the Pension Act to a rigorous analysis in
order to determine if the Act fulfilled each of these
factors.146 In conducting this analysis and applying
these extracted factors, the Court distorted their
meaning.
The Allied Court found the Pension Act lacking
because the legislation was not enacted to deal with
an emergency situation.147 While recognizing that
it may not require "an emergency of great
magnitude constitutionally [to] justify a state law
impairing the obligations of contracts,"148 the Court
did intimate that since no emergency situation
justified this statute, it did not have a permissible
end and was therefore unconstitutional. However,
Veix149 expressly holds that an emergency situation
need not exist for a statute to constitutionally

146 438 U.S. 248-50. Whereas the Court tested the Pension Act
by these factors, it recognized that not all of them had been
required in past cases that sustained contract clause
challenges. Id at 249 n.24.
147 Id at 249.
14s Id at 249 n.24.
149

310 U.S. at 38-39. "If the legislature could enact the
legislation... in that emergency, we see no reason why the
new status should not continue." Id at 39.
A49

impair the obligation of the contract.150 For an
exercise of the state power to act in the general
welfare to impair contractual obligations validly,
there need exist only a problem that is within the
area of legislative competency.151
The Court further criticized the Pension Act
because the Act provides relief that is
permanent,152 rather than the temporary relief
afforded by the Blaisdell statute. However, statutes
that have been held constitutional when subject to
a contract clause challenge have often provided
relief that is permanent.153 A statute enacted to
deal with a situation that could not be
characterized as an "emergency," may need to
provide permanent relief to be effective. Thus, by
requiring relief to be temporary, the Court is
implicitly requiring an emergency, and vice versa.
Neither of these requirements finds support,
however, in past precedent. Rather, the Court in
the past has validated statutes involving
150 There are other cases in which legislation has been held
valid despite its interference with contracts and the situation
in which they operated could not be characterized as
"emergency." See, e.g., East New York Sav. Bank v. Hahn,
326 U.S. 230 (1945); City of El Paso v. Simmons, 379 U.S. 479
(1965).
151 379 U.S. 479.
152 438 U.S. at 250.
153 See, e.g., Veix v. Sixth Ward Bldg. & Loan Ass'n, 310 U.S.
32 (1940); City of El Paso v. Simmons, 379 U.S. 479 (1965).

A50

permanent relief in a non-emergency situation,
even though they impaired contract obligations.154
Further, the Pension Act can be viewed as
providing only temporary relief. The Act, by its
terms was to remain in effect only until the federal
Employee Retirement Income Security Act (ERISA)
was effective. ERISA was to preempt all state laws,
and the Minnesota legislature indicated an
awareness of ERISA's preemptive effect in the
Pension Act.155 Thus, as the Court recognized, the
Pension Act was in effect for less than nine months.
The Court, then, condemned the Pension Act for
not being temporary, while recognizing in a
footnote that the Act's effective life was less than
nine months.156
Finally, the Court condemned the Pension Act
because it did not operate in an area already
subject to regulation.157 This requirement was
derived from Veix,158 in which a statute altered the
withdrawal procedures for building and loan
associations. While the fact that the area in which
the statute operated may have been significant in
154 See note 153 supra.
155 438 U.S. at 248-49 n.21.
156 Id ("[T]he Minnesota Act was in effect less than nine
months").
438 U.S. at 250.
158

310 U.S. 32, 38 (1940).
A51

Veix, it has never before been suggested that
legislation, to impair a contractual obligation
justifiably, must operate in an area already subject
to regulation.159
The selective extraction and subsequent
misapplication of factors relevant in previous cases
by the Court in Allied, operated as a misapplication
of past precedent. There is no indication that any of
the extracted factors was meant to be
determinative, or even necessarily significant in
cases following Blaisdell. In actuality, each of these
extracted factors was absent in at least one case in
which a statute was upheld against a contract
clause challenge. Never in the post-Blaisdell era
were contract clause questions measured by such
precise criteria, satisfaction of each being a
prerequisite for constitutionality. Prior to Allied,
challenged legislation was required to satisfy the
legitimate ends-reasonable means test and was
considered in the totality of the circumstances160
rather than merely being required to satisfy
specific criteria.

159 The Court has never before suggested that this is a
significant factor. However, the Court has overlooked the fact
that labor relations, and employement contracts, are subject
to massive regulation. See generally LABOR RELATIONS
AND SOCIAL PROBLEMS (2d ed. R. Covington 1974).
160 See, e.g., United States Trust Co. v. New Jersey, 431 U.S. 1
(1977); City of El Paso v. Simmons, 379 U.S. 479 (1965).

A52

These factors illustrate the Allied Court's
reversion to the strict scrutiny test of the Lochner
era. By applying this level of scrutiny in a selected
area-contracts impaired by state legislation-the
Court has singled out a particular type of interest,
contract, and afforded it higher protection than
other interests. For example, the Court consistently
recognized the government's rights to interfere
with property under police power, when a contract
clause issue is not involved. In a case decided the
same term as Allied Structural Steel, Penn Central
Transportation Co. v. New York,161 the Court
upheld against a fourteenth amendment due
process challenge a city ordinance that restricted
the use of property, thereby lessening the value of
appellant's property. The Penn Central Court
upheld this ordinance under both a loose endsmeans analysis, and a broad view of permissible
ends.162 A similar example is Usery v. Turner
Elkhorn Mining.163 In Turner Elkhorn Mining the
Court upheld against a fifth amendment due
process challenge a federal statute that
retroactively affected the obligations of mine
owners to compensate former and present miners
who contract pneumoconiosis (black lung disease).
The statute required employers to pay
compensation to these workers, although no such
compensation was required by the employee438 U.S. 104 (1978).
!62 Id, at 136-38.
428 U.S. 1 (1976).
A53

employer contract.164 Despite the drastic increase
in financial liability and the retroactive and
permanent effect of this legislation, it was held
valid.165
The real difference between Penn Central and
Turner Elkhorn Mining on the one hand, and Allied
on the other is the way the Court applied the endsmeans and legitimate ends test. In the first two
cases the Court was able to uphold the legislation,
because it was willing to defer to the legislative
determination of what was in the public interest
and necessary and therefore a permissible end.166
In Allied, however, the legislation was declared
invalid because of the strictness in applying the
tests. This results in an elevation of a particular
interest, that protected by contract, to a higher
standard of protection than is afforded to
noncontractual interests. There is simply no
rational basis for this distinction. Following the
Allied theories, an identical statute could be passed
by both a state and the Congress, and the
congressional statute upheld because the contract
clause only applies to states,167 while the state
'“Id. at 7-12.
165 Id. at 38.
166

Penn Central Transp. Co. v. New York, 438 U.S. 104
(1978); Usery v. Turner Elkhorn Mining, 428 U.S. 1, 18-19
(1976).
161 "No state shall...." U.S. CONST, art. I, § 10.

A54

statute is invalidated. Further, the mere finding of
the existence of a contract could affect the entire
outcome of legislation.
B. Refusal To Maintain the Presumption Favoring
the Legislative Judgment as to Necessary and
Reasonableness of Legislation
Although the Allied Court implicitly
acknowledged the existence of a presumption
favoring the legislative judgment as to the need for
legislation and the reasonableness of the scheme
adopted, the Court, for reasons unexpressed,
refused to maintain this presumption.168 In doing
so, under the Allied facts, the Court initially noted
that the Minnesota Pension Act severely disrupted
the contractual relationship between the company
and its employees. Because the state did not
demonstrate any need for the Pension Act, the
Court determined that the presumption favoring
the legislative judgment could not stand.169 Thus,
the Court implied that the legislature has a duty to
make some showing of the need for the legislation
before the presumption in its favor will be
maintained. In effect, therefore, there is no
168 Yet there is no showing in the record before us that this
severe disruption of contractual expectations was necessary to
meet an important general social problem. The presumption
favoring "legislative Judgment as to the necessity and
reasonableness of a particular measure,"... simply cannot
stand in this case. 438 U.S. at 247 (citations omitted).
169 Id at 247-48. The Court notes that the only indication of
legislative intent is found in the district court opinion.
A55

presumption, because the burden is on the state,
not on the party challenging the legislation.
This is, however, contrary to the current
jurisprudential theories of economic legislation.
Since the 1930's, the challenger of the legislation
has had the burden of demonstrating that the
legislation is unnecessary or arbitrary.170 The
legislature has not been required to show the need
for the enactment. Rather, "the existence of facts
supporting the legislative judgment [was] to be
presumed."171
Standard procedure since Blaisdell has been to
defer to legislative judgment172 whether the
challenge is under the due process or contract
170 "Once we are in this domain of the reserve power of a state
we must respect the 'wide discretion on the part of the
legislature in determining what is and what is not
necessary'." East New York Sav. Bank v. Hahn, 326 U.S. 230,
233 (1945) (citations omitted). The practice of giving deference
to the legislature, and putting the burden on the challenger of
the legislation, is also illustrated in due process cases. See,
e.g., Olsen v. Nebraska, 313 U.S. 236, 246 (1941) ("'There is
no necessity for the state to demonstrate before us that evils
persist."); Ferguson v. Skrupa, 372 U.S. 726, 731 (1963) ("We
conclude that the [state] Legislature was free to decide for
itself that legislation was needed to deal with the [problem].").
171 United States v. Carolene Products Co., 304 U.S. 144, 152
(1938).
172

See, e.g., City of El Paso v. Simmons, 379 U.S. 497, 508-09
(1965); East New York Sav. Bank v. Hahn, 326 U.S. 230, 23233 (1945); United States Trust Co. v. New York, 431 U.S. 1,
22-23 (1977).
A56

clauses. Deference, a theory deriving from
separation of powers and concepts of federalism,
has left as a legislative function the determination
of which laws are needed, because the legislature is
the body with the duty of enacting legislation. "[The
Court] does not sit as a superlegislature to
determine the wisdom, need, and propriety of laws
that touch economic problems, business affairs, or
social conditions."173 Although precedent
establishes deference as the accepted practice, for
unarticulated reasons the Allied Court failed to
follow these precedents. If Allied indicates an
intent by the Court to continue to refuse to
maintain the presumption favoring legislative
judgment, an arbitrary situation could result. For
example, the Court would have to adjudicate
questions involving economic legislation by
different standards, depending upon which
constitutional clause the litigant relied. If a due
process violation were alleged, it would be the
burden of the one challenging the legislation to
come forward and demonstrate why the statute is
not a legitimate exercise of the legislature's
power.174 If, however, the contract clause was
173 Griswold v. Connecticut, 381 U.S. 479,482 (1965). See also
Ferguson v. Skrupa, 372 U.S. 726, 732 (1963) ('"The ... statute
may be wise or unwise. But relief, if any be needed, bes not
with us but with the body constituted to pass laws... ").

174 Both state and federal legislation can be challenged on due
process grounds, using the fourteenth amendment if it is state
legislation, the fifth if it is federal. Due process theories now
demand that the challenger of the legislation come forward
and demonstrate that the statute is arbitrary or capricious.
See, e.g., Nebbia v. New York, 291 U.S. 502 (1934);
A57

invoked, the state would have the burden of
demonstrating the legitimacy of the legislation,
that it was both necessary and reasonable. The
result is greater protection for property rights
grounded in contract than for other property
rights.175
Thus, if it is the intent of the Court to continue
to refuse to maintain the presumption favoring the
legislative judgment, either property grounded in
contract would become a favored form of property
when positioned in a way that is subject to the
contract clause, or, in an attempt to be even
handed, the Court could refuse to defer to the
legislative judgment in all actions involving
economic legislation. The latter possibility, with the
Court refusing to entertain legislative presumption
in any attack on economic legislation, would in
reality be a return to the principles and theories of
the substantive due process era.176 Hopefully, the
Williamson v. Lee Optical Co., 348 U.S. 483 (1955); Ferguson
v. Skrupa, 372 U.S. 726 (1963).
175 Compare the treatment of property in Allied, in which a
contract was involved, with Usery v. Turner Elkhorn Mining
Co., 428 U.S. 1 (1976), and Penn Central Transp. Co. v. New
York City, 438 U.S. 104 (1978), neither of which involved
contractual property. In both of the latter cases, the
presumption favoring the legislative judgment was upheld,
and the statute was found not to unconstitutionally deprive
the challenger of property.
176

Substantive due process allowed the court to examine the
substance of the legislation, and use their independent
judgment to determine if the legislation was reasonable. See
note 123 supra.
A58

problems caused by the theories used by the Court
during the substantive due process era177 are fresh
enough in the Court's memory that the
presumption favoring the legislative judgment will
not be discarded in all economic legislation
litigation. Recent authority indicates that the Court
will retain the practice of deference, at least when
the contract clause is not involved.178
A comparison of Usery v. Turner Elkhorn
Mining Co.179 and Allied indicates the favored
position that the Allied decision gives to property
based on contract when a state statute impairs the
contract. The statute challenged in Turner Elkhorn
severely altered the obligations mine owners had to
employees. The old obligation was based on
contract, but the contract clause could not be
invoked to give the mine owners protection because
the statute was federal and the contract clause only
prohibits state action. In Turner Elkhorn, decided
in 1976, a Court with the same composition as the
177 The decisions of the court during the latter part of the
substantive due process era resulted in the invalidation of
much of the "New Deal" legislation, and eventually led
President Roosevelt to introduce his "court-packing" plan. See
Strong, The Economic Philosophy o/Lochner: Emergence,
Embrasure and Emasculation, 15 ARIZ. L. REV. 419, 449-54
(1973).
178 See, e.g., Usery v. Turner Elkhorn Mining Co., 428 U.S. 1,
15 (1976).

178 Id.

A59

Allied Court retained the presumption favoring the
legislative judgment against a substantive due
process challenge to the federal statute. In
upholding the presumption favoring the legislative
judgment, the Turner Elkhorn Mining Court noted:
It is by now well established that legislative
Acts adjusting the burdens and benefits of
economic life come to the Court with a
presumption of constitutionality, and that the
burden is on one complaining of a due process
violation to establish that the legislature acted
in an arbitrary and irrational way.180
The Allied Court, without even a modicum of
logic evidenced, has elevated property rights with
contractual origins to a more protected status than
other property rights. An independent examination
has indicated no basis for the higher protection of
these rights. The only viable explanation for giving
property that derives from contract greater
protection than other property is the explicit and
absolute nature of the contract clause. The contract
clause provides that "no state shall,"181 absolutely
180 Id.
181 The contract clause explicitly provides that "[n]o state
shall... pass any... Law impairing the Obligation of
Contracts." U.S. CONST. Art. I § 10, cl. I. Other clauses relied
on for the protection of individual property are not as explicit.
An example is the due process clause, which is the major
clause relied on for the protection of property. The due process
clause of the fifth amendment provides that "[n]o person shall
... be deprived of...property, without due process of law." U.S.
CONST, amend. V. In the fourteenth amendment the due

A60

prohibiting action, whereas the due process clause
only prohibits action that is not accompanied with
due process. This analysis breaks down, however,
with the realization that the contract clause was
never considered absolute, and always thought to
be subject to the police power.182
Further, there does not appear to be any logic in
a position that would justify treating property
differently based on its derivation, rather than its
substance. If this different treatment continued, it
would be due to the happenstance that the Framers
inserted the contract clause to guard against a
particular practice that existed under the Articles
of Confederation,183 rather than on a recognition
that some property interests are more fundamental
than others and thus require greater protection.
A different treatment of property interests
based solely on the form which they take raises
equal protection questions. For example, if State X
process clause provides that "[n]o state shall... deprive any
person of...property, without due process of law." U.S.
CONST, amend. XIV. The more explicit nature of the contract
clause and the lack of any qualifiers such as "due process of
law" in the clause, can allow for it to be construed as
providing greater protection for property than other
constitutional protections.
182 See, e.g., Stone v. Mississippi, 101 U.S. 814 (1880) (state
can exercise its police powers regardless of contract).
183

See notes 7-10 supra and accompanying text.

A61

enacted a minimum wage law, this would be clearly
proper under the due process clause. However,
under the new contract clause test the minimum
wage law might be unconstitutional as applied to
some employees. If one employer had workers
under contract for less than the minimum wage,
the minimum wage law would have to undergo
strict scrutiny as applied to those employees.
However, for noncontract workers, the minimum
wage law would only have to undergo minimal
scrutiny. The employer with the contract would be
more likely to avoid the minimum wage law, thus
raising equal protection questions. Thus, an
employer could "contract" into immunity from state
police power legislation. Therefore, under the Allied
theory, similarly situated individuals will be
treated differently, because of the mere fortuity of a
contract.
The Allied Court's refusal to defer to the
legislative judgment does not appear to be confined
to the facts of that case. The only indication that
Allied's strict scrutiny analysis might be confined
to that case is that the Court indicated that Allied
involved a severe impairment of contract with no
legislative showing of need.184 Thus, one might
hope that the Court would only refuse to engage in
the traditional deference if a severe impairment
was combined with no legislative justifications.
184 438 U.S. at 249. "This legislation ... [imposed] a sudden,
totally unanticipated, and substantial retroactive obligation
upon the company ..." Id.
A62

This, however, is probably no more than a hope.
The Allied Court readily abandoned the deference
tradition, which in the past required no legislative
justifications, and required the legislature to come
forward with justifications. There is no indication
that the legislature would not have the same
burden if the finding of impairment was less than
severe. Further, the Court has, by using the words
"severe disruption of contractual expectations"185
adopted a vague standard into law, one which is so
amorphous that it allows the Court to determine
independently, without standards, what is severe.
Barring some further elaboration on the Allied
standard, one would have to conclude that this
refusal to defer has become an integral part of
contract clause litigation.
C. Court Expands the Concept of What Is Included
in a Contract, for the Purpose of Analyzing a
Contract Impairment
Allied, together with United States Trust,
formally changes the nature of the inquiry aimed at
determining if there has, in fact, been an
impairment of contract.186 Traditionally the
185 Id at 247.
186

The first inquiry in any case arising under the contract
clause is whether a contract is actually involved. The inquiry
then proceeds to determine whether the challenged statute
operates in a way that impairs the obligation of the contract.
See, e.g., Treigle v. Acme Homestead Ass'n, 297 U.S. 189, 19495 (1936). Only after an impairment is isolated does the Court
proceed to determine if that impairment is constitutional.
City of El Paso v. Simmons, 379 U.S. 497 (1965).
A63

question asked was whether there had been either
a modification or abrogation of the obligations of
the contract or a severe disruption of the remedy
that, by making the enforcement of the obligation
unduly difficult, rendered the obligation
worthless.187 United States Trust indicated that the
aim of this inquiry was misplaced.188 The
recognition that obligations as well as remedies can
be modified without violating the contract clause
has made the traditional inquiry "largely an
outdated formalism."189 Allied and United States
Trust, changed the nature of the initial inquiry,
directing that inquiry to the question of what the
legitimate expectations of the contracting parties
were. By concentrating on the vague notion of
contractual expectations the Court has created a
means to expand the application of the contract
clause. The Court has interpreted this legitimate
expectations test to mean two different things.
Allied is a vehicle for an expansive application of
the contract clause, whereas in United States Trust
the Court follows a more traditional contract clause
approach.
The statute challenged in Allied does not dilute
or abrogate any obligation owed by one party to

187

See Home Bldg. & Loan Ass'n v. Blaisdell, 290 U.S. 398,
430-31 (1934).
!88 431 U.S. at 19-21 n.17 & 26-27 n.25.
!89/d. at 19-21 n.17.
A64

another under a private contract.190 What the
Allied Court identifies as impaired by the Pension
Act would not even traditionally be defined as a

190 It is questionable whether Allied even presented a contract
clause issue. To come under the contract clause there must be
a statute that impairs a contract. See United States Trust Co.
v. New Jersey, 431 U.S. 1, 19-21 n.17. What, then, is the
contract involved in Allied? The Court indicates that the
contract at issue was the employer-employee contract that
required the company to pay money to its employees for work
done, and the part of the contract at issue is the pension plan.
Can this he characterized as a contract? Contract is often
defined as "a promise, or set of promises, for breach of which
the law gives a remedy, or the performance of which the law
in some way recognizes as a duty." I S. WILLISTON,
CONTRACTS § 1 (3d ed. W. Jaeger 1957). Can the pension
plan be termed a contract, or even a basis for contractual
expectations? The pension plan instituted by the company
was voluntarily established. The company retained a
complete right to terminate or modify the plan at any time,
excepting rights already vested under the plan and
contributions already made to the pension fund. If the
company terminated or modified the plan, the company would
not be liable to any employee not having vested rights under
the plan, see note 99 supra, nor would the employees have any
diminution of their duties. 438 U.S. at 236-40. Further, the
employees would have no right of action against the company
for termination or modification of the plan. Thus, the pension
plan does not satisfy Williston's definition of a contract,
because there is no legal sanction for the nonperformance of
these duties. Since performance of the apparent promise is
optional with the promisor, this "contract" could be construed
as illusory. See Corbin, The Effect of Options on
Consideration, 34 YALE L.J. 571 (1925); Patterson, Illusory
Promises and Promisor's Options, 6 Iowa L. BULL. 129
(1920).
A65

term of a contract.191 The challenged statute
actually impairs the contractually based
expectations of the parties. Although in isolation,
the distinction between impairing a term and
impairing an expectation of contract may sound
like a semantic game, in application, this
distinction expands the reach of the contract clause
prohibitions. In Allied, the contract impaired was
an employment contract between the company and
its employees. A generous interpretation of this
contract would allow it to be construed to include
the company's pension plan, as well as other fringe
benefits of employment. So interpreted, the
contract required the company to pay X amount of
dollars to each employee for salary and fringe
benefits. The Minnesota Pension Act did not
prevent the company from paying X amount, nor
did it prevent any employee from fulfilling his
obligations assumed in the contract. In reality, the
Pension Act allowed the parties to perform upon
their agreed duties. What the statute did, which
the Court interpreted as an impairment, was to
alter the expectations of the parties that were
based on the contract. Thus, the statute required
the company to pay the agreed upon amount, X, to
the employee for salary and fringe benefits, and
added a new obligation to the company, to pay an
extra amount, Y.192 Because the statute required
191 The Court identifies the disruption of expectations based
on the pension plan as the impairment. 438 U.S. at 245-47.
See note 191 supra.
192

The dissent noted that "the Act will impose only minor
economic burdens on employers whose pension plans have
A66

,-*v

the company to do more than it had expected to do,
based on the contract, the Court held the statute
invalid as impairing the obligation of contract.193
Had the Court used the traditional inquiry,194
rather than this contractual expectations approach,
it seems likely that the Pension Act would not have
been held to impair the obligation of contract. The
Pension Act did not prevent, or make unduly
difficult, the performance, by any party, of the
duties undertaken by the contract. Rather, the
Pension Act created additional duties for one party
to the contract, independent of the terms of the
contract.195 It was not the contract itself that was
been adequately funded." 438 U.S. at 253 (Brennan, J.,
dissenting). Only minor economic burdens should occur
because contributions were to be made based on actuarial
predictions for all employees. Id at 237. The Pension Act did
not alter the amount to be contributed, but only superimposed
a different vesting date, after which unforeseen contingency
could not be a basis to deprive pension fund benefits. Thus,
since the company had, at least theoretically, already made
pension plan contributions for these employees, there only
would be minor economic burdens. Indeed, this burden could
be offset by the contributions the company had made to the
plan for employees whose rights would not vest, even under
the ten-year Pension Act provision.
193 Id. at 250-51.
194 See, e.g., City of El Paso v. Simmons, 379 U.S. 497 (1965).
The contract clause was intended by the Framers to be
applicable only to laws that altered the obligation of contract
by relieving one party to the contract of the obligation to
perform a contractual duty. See notes 7-10 supra and
accompanying text.
A67

significant in creating the duty, but the existence of
the relationship between the employer and
employee. It was the existence of a specific
relationship that enabled the Pension Act to be
applied to the company. In holding that the
Pension Act violates the contract clause because it
changed the expectations of the parties,196 the
Court has established a novel and expansive
interpretation of the clause, and extended it to
protect expectation and reliance interests arguably
related to, but not themselves governed by a
contract.
United States Trust, while using language of the
"contractual expectations" doctrine,197 did not apply
the doctrine in the manner used by the Allied
Court. United States Trust did not extend the
inquiry beyond the contract terms. Rather, the
inquiry focused on the actual terms of the contract.
The expectation inquiry, unlike that in Allied, was
not directed at what the parties expected their
195

Of course, it could be argued that the duty to pay
additional money to the employee pension plan was not
independent of the contract, because the Pension Act adds
these duties based on an already existing plan. However, the
Pension Act did not prevent either of the parties to the
contract from performing their duties. 438 U.S. at 256
(Brennan, J., dissenting). The Act simply created additional
duties, beyond those which the parties were bound by
contract to perform. See note 191 supra.
196 438 U.S. at 250-51.
197 431 U.S. at 19-21 n.17 ("a more particularized inquiry into
the legitimate expectations of the contracting parties.").
A68

relationship would be because of the contract, but
rather, it was directed toward what modifications
the parties could have expected from legislative
actions.198 In thus directing the inquiry, the United
States Trust Court acted consistently with the
Blaisdell interpretation of the contract clause.
Because, after Blaisdell, the question of whether
the contract clause had been violated could not be
answered by merely showing an impairment of
contractual obligation,199 the focus on expected
changes aided in determining if a statute impairing
a contract was constitutional. If the change could
be shown to be reasonably expected by a party
when the contract was adopted, then no
constitutional violation would result from the
impairment.200 By focusing on the terms of the
contract and expected changes in those terms,
United States Trust continues in the traditional
contract clause approach, that the contract clause
protects from modification those things that the
parties agree to do.

198 Id. at 21.
The parties may rely on the continued existence of adequate
statutory remedies for enforcing their agreement, but they
are unlikely to expect that state law will remain entirely
static. Thus, a reasonable modification of statutes governing
contract remedies is much less likely to upset expectations
than a law adjusting the express terms of an agreement.
199 See, e.g., Faitoute Iron & Steel Co. v. City of Asbury Park,
316 U.S. 502 (1942); Veix v. Sixth Ward Bldg. & Loan Ass'n,
310 U.S. 32 (1940).

299 431 U.S. at 19-21 n.17.
A69

The different applications of the expectation
inquiry in United States Trust and Allied indicate
the expansion of the contract clause in Allied.
United States Trust continues to focus on the terms
of the contract, and on changes that could be
expected to those terms, while Allied focuses on the
expectations of the parties that arise from their
contractual relationship. The broader focus in
Allied is certain to expand the reach of contract
clause prohibitions, particularly in those instances
in which social legislation creates additional duties
on certain classes of persons. The impact of this
expanded reach can be seen most vividly in the
employment area. Positive social legislation
permeates the employment area, continually
adding to the duties of the employer.201 If this
creation of additional duties can be shown to
modify the expectations of the employer,202 then the
contract clause protections will be invoked.
The "expectations" inquiry adds yet another
element to contract clause analysis. This test is
highly manipulable. The Court has enunciated no
standards by which it is to determine whether a
particular piece of legislation is expected. For
Some examples are workers' compensation laws, minimum
wage laws, state disability insurance, and unemployment
compensation.
201

202

438 U.S. at 49-50. A law that requires an individual to pay
more money than originally anticipated can invariably be
construed as disrupting expectations.

A70

'.C

example, with the Minnesota Pension Act,
Minnesota had enacted much legislation in the
employee/ employer field, and it could clearly be
expected that they might enact more. The Court
does not say what makes this legislation
unexpected. Further, it is likely that the most
unexpected laws will be those necessitated by
emergency situations, and those that will satisfy
the Court's requirement of grave need for the
legislation. These, however, will fail to survive
constitutional scrutiny under the "expectations"
test.
Had the Allied Court continued to focus on the
terms of the contract, the results of the challenge to
the Pension Act probably would have been
different. Because the Pension Act did not dilute or
abrogate any duties assumed by the parties in their
contract, a traditional analysis would probably find
no impairment of contract within the meaning of
the contract clause. If the contract clause issue did
not exist, either the parties would have to challenge
the legislation on another basis or the suit would be
dismissed. Most likely, the Pension Act would be
challenged under the due process clause of the
fourteenth amendment. Under such a challenge,
the Court, if acting consistently with due process
theories governing economic legislation, could only
invalidate the statute if it appeared arbitrary or
irrational. The Court would be unable to escape the
inevitable comparison between Allied and Usery v.
Turner Elkhorn Mining Co. 203 Turner Elkhorn
203 428 U.S. 1 (1976).
A71

Mining involved national legislation that imposed
unexpected, sudden and substantial liability on
mine owners. The legislation was upheld despite
the due process challenge. In upholding the
legislation, the Court noted that even retroactive
legislation, when subject to a due process challenge,
must stand unless the challenger can show it to be
arbitrary or irrational.204 Applying the Court's
reasoning in Turner Elkhorn Mining to the facts in
Allied, it can be seen that the company in Allied, if
alleging a due process violation, would have to
show that the statute was arbitrary or irrational.
Decisions from the Court since the 1930's illustrate
the difficulty in carrying this burden.205 It is a rare
situation when a litigant can establish that the
legislature had no rational basis for enacting the
challenged legislation. It can be assumed that in
Allied the state could have come forward and
shown some rational basis for the Pension Act.206

a
»

204 It is by now well established that legislative Acts adjusting
the burdens and benefits of economic life come to the Court
with a presumption of constitutionality, and that the burden
is on one complaining of a due process violation to estabhsh
that the legislature has acted in an arbitrary and irrational
way. Id. at 15.
See, e.g., Williamson v. Lee Optical, 348 U.S. 483 (1955);
North Dakota State Bd. of Pharmacy v. Snyder's Drug Stores,
414 U.S. 156 (1973); Ferguson v. Skrupa, 372 U.S. 726 (1963).

205

206 438 U.S. at 247. "Yet there is no showing in the record
before us that this severe disruption of contractual
expectations was necessary to meet an important general
social problem." Id. (emphasis added).
A72

All indications are that, had the Pension Act been
challenged as violating due process, the challenge
would have failed. Thus, the expanded application
of the contract clause can be seen to provide greater
protection for contract-related property rights than
that provided by the traditional post-Blaisdell
interpretation or by a due process analysis.
Intimately related to the Court's expansive
application of the contractual expectations doctrine
is the Allied Court's holding that an enlargement of
a contractual obligation can equal an
impairment.207 The Court's protection of
contractual expectations depends upon its holding
Although the majority asserts that there was no showing
of need, the dissent, as well as the district court and the
Minnesota Supreme Court, found that the statute was needed
to remedy a social problem arising from the operation of
private pension plans. Further, Congress recognized the need
for some legislative guidelines with private pension plans,
and enacted the Employee Retirement Income Security Act
(ERISA), 29 U.S.C. § 1001 et seq. (1975).
The Minnesota Supreme Court decision, Fleck v.
Spannaus, 251 N.W. 2d 334,338 (Minn. 1977), the district
court decision, Fleck v. Spannaus, 449 F. Supp. 644 (D. Minn.
1977) (mem.), as well as the Supreme Court dissent, 438 U.S.
at 251-56, all recognize that the termination of operations by
an employer can cause an employee to lose anticipated
pension benefits. See also Bernstein, Employee Pension Rights
When Plants Shut Down: Problems and Some Proposals, 76
HARV. L. REV. 952 (1963). When the Minneapolis-Moline
Division of White Motor Corporation closed one of its
Minnesota plants, this problem of plant closure and pension
plan termination was brought to the attention of the
Minnesota Legislature. 449 F. Supp. at 651.
2°7 438 U.S. at 244-45 n.16.
A73

that enlargement of a contractual obligation may
be an impairment. A statute that diminishes or
dilutes the expectations of the parties would
invariably negate or dilute some duty of a party
assumed in the contract terms. A statute that
changes the parties' contractual expectations,
however, without changing the terms of the
contract or without preventing performance of
contractual duties, will inevitably enlarge the
obligation of contract. Thus, the holding that an
enlargement can equal an impairment is necessary
to give practical effect to the Court's application of
the contractual expectations doctrine.
The Allied Court was unable to rely on any
authority emanating from the Blaisdell era to
support its holding that an enlargement equals an
impairment.208 Therefore, the Court was forced to
obtain its support in earlier cases and could cite
only two cases that embraced this theory other
than in dictum. 209 Detroit United Railway v.
Michigan210 and Georgia Railway & Power Co. v.
Decatur211 directly support the proposition that an
2°8 Id.
209

See Hale, supra note 7, at 514-16. The Court cited eight
cases as support for the proposition that an enlargement of an
obligation equals an impairment. Only two of these cases,
Detroit United Ry. v. Michigan, 242 U.S. 238 (1916), and
Georgia Ry. & Power Co. v. Decatur, 262 U.S. 432 (1923),
embraced this theory in more than dicta.
2io 242 U.S. 238 (1916).
211 262 U.S. 432 (1923).
A74

enlargement is an impairment within the meaning
of the contract clause. Nevertheless, the strength of
these two cases as authority may be viewed212 as
greatly diminished by the realization that these
cases are products of the substantive due process
era, 213 and are contrary to an earlier interpretation
that expressly disapproved of the notion that an
enlargement can equal an impairment.214 Both
Georgia Railway and .Detroit United Railway
involve railway companies that had contracts with
municipalities to provide service at a specified rate
within city limits. In both cases, after the contracts
were made and performance begun, the cities
expanded their boundaries. The municipalities then
insisted that, after expansion, the railway
companies provide service at the contract rate to
the annexed areas. In both cases the Court held
that forcing an extension of the contract rate to
these annexed areas impaired the obligation of
contract by enlarging the obligation.215 These
holdings lent the needed support to the Allied
212

438 U.S. at 259 n.7 (Brennan, J., dissenting) ("These
opinions reflect the then-prevailing philosophy of economic
due process which has since been repudiated.").
213

Detroit United Ry. was decided in 1916 and Georgia Ry. &
Power was decided in 1923. See notes 209-11 supra. The
substantive due process era was in full force between Lochner
v. New York, 198 U.S. 45 (1905), and Nebbia v. New York,
291 U.S. 502 (1934).
214

Satterlee v. Matthewson, 27 U.S. (2 Pet.) 380 (1829).

215

Detroit United Ry, v. Michigan, 242 U.S. 238, 253 (1916);
Georgia Ry. & Power Co. v. Decatur, 262 U.S. 432, 439 (1923).
A75

assertion that an enlargement equals an
impairment.
Both cases, however, are distinguishable from
Allied. Each involved a contract to which the
government was a party and the challenged
legislation was enacted in the government's
interest. In such cases, as was noted in United
States Trust, it is appropriate that the Court take a
stricter view. The railway cases also reflect the
popular attitude of their time. Both cases were
decided during the substantive due process era,
when the Court was extremely protective of
property rights. The decline of the substantive due
process theories brought a substantial decline in
the protections of property rights,216 and those
declines make the railway cases questionable
authority. Further, Satterlee v. Matthewson,217 an
earlier contract clause case, expressly holds that an
enlargement of obligation does not equal an
impairment. Satterlee is more directly applicable to
the Allied case because Satterlee involves a statute
that affected a contract between private
individuals, while the other two cases involve the
state as a party to the contract. Because the state
was not a party to the contract, no stricter scrutiny
was required. In Satterlee, a Pennsylvania statute
giving validity to a contract that was invalid when
216 See cases cited in note 201 supra. See also Strong, The
Economic Philosophy of Lochner: Emergency Embrasure, and
Emasculation, 15 AR.IZ. L. REV. 419, 449-55 (1973).
217 27 U.S. (2 Pet.) 380 (1829).
A76

v

made was not held to violate the contract clause.
"[l]t is not easy to perceive," said Justice
Washington, "how a law which gives validity to a
void contract, can be said to impair the obligation of
that contract.... [I]t surely cannot be contended,
that to create a contract, and to destroy or impair
one, mean the same thing."218 Since treating
something as a contract where none previously
existed does not violate the contract clause, it
should follow that creating an obligation where
none previously existed does not violate the
contract clause.219 If it is found that the creation of
the new obligation results in a deprivation of
property, the basis of the challenge to the statute
causing this deprivation should be the due process
clause, not the contract clause.
The actual effect of the Court's holding, that an
enlargement of obligation can equal an
impairment220 of obligation, is almost certain to be
substantial. Legislation is continually adding to
duties already existing, particularly in the
employment area.221 When legislative enactments

218 Id at 412-13.
219

See Hale, supra note 7, at 514-16. See also 438 U.S. at 25859 (Brennan, J., dissenting).

220 438 U.S. at 244-45 n.16.
221

See id. at 255 (Brennan, J., dissenting); id. at 243-44
(citing United States Trust Co. v. New Jersey, 431 U.S. 1, 22
(1977)). See e.g., Usery v. Turner Elkhorn Mining Co., 428
U.S. 1, 5 (1976) (suit challenging Federal Coal Mine Health
A77

increase the duties the parties have undertaken by
contract, or expectations they have derived from
contract, the legislation will be vulnerable to
contract clause challenges.
IV. CONTRACT CLAUSE LITIGATION: WHAT
THE FUTURE HOLDS
Allied and United States Trust put to rest
speculation that the contract clause is a "dead
letter" of the Constitution. But these cases go
beyond that. Together they elevate property
grounded in contract to a favored status in the law,
and provide more protection for this type of
property than property in other forms. This will
undoubtedly increase contract clause challenges to
state legislation. Moreover, the expansive theories
of Allied will create a desire among litigants to
have their property considered a product of
contract. Thus, litigants will be continually urging
an expansive view of contract.
Another effect of these two cases will be
inconsistent treatment of property depending on
what form that property takes and whether the
challenged legislation is a state or federal statute.
Thus, individuals will feel a need to have a contract
to ensure that their position is less vulnerable to
state legislation.

and Safety Act of 1969, 30 U.S.C. §§ 901 et seq. (1970 & Supp.
IV)).
A78

The future is actually uncertain in many areas.
The Court could easily, in the next contract clause
case, confine Allied to its facts, or find the case was
merely an instance of a statute being
unconstitutional as applied, rather than as being
unconstitutional on its face. So long as Allied
remains as authoritative precedent, however, there
will remain a double standard in economic
legislation, and the standard used will depend on
the form, rather than the substance, of property in
a particular case.Janet Irene Levine

A79

